<html>
<title> - NEW INITIATIVES IN COOPERATIVE THREAT REDUCTION</title>
<body><pre>[Senate Hearing 109-880]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-880

 
            NEW INITIATIVES IN COOPERATIVE THREAT REDUCTION

=======================================================================

                                HEARING
                               BEFORE THE
                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE
                       ONE HUNDRED NINTH CONGRESS
                             SECOND SESSION

                               __________

                            February 9, 2006

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html





                      U.S. GOVERNMENT PRINTING OFFICE
35-130 PDF                   WASHINGTON  :  2007

---------------------------------------------------------------------
    For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 






                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)









                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     4
    Knight Ridder newspaper article dated February 7, 2006, 
      submitted for the record...................................    32
Joseph, Hon. Robert G., Under Secretary for Arms Control and 
  International Security, Department of State, Washington, DC....     7
    Prepared statement...........................................    10
    Responses to questions submitted by Senator Biden............    34
    Responses to questions submitted by Senator Obama............    44
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Obama, Hon. Barack, U.S. Senator from Illinois, opening statement     5

                                 (iii)










 
            NEW INITIATIVES IN COOPERATIVE THREAT REDUCTION

                              ----------                              


                       THURSDAY, FEBRUARY 9, 2006

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-419 Dirksen Senate Office Building, Hon. Richard Lugar 
(chairman of the committee) presiding.
    Present: Senators Lugar, Martinez, Biden, Bill Nelson, and 
Obama.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. The Foreign Relations Committee is called to 
order. The committee meets today to examine the U.S. policies 
and programs in two critical threat reduction areas: 
Conventional weapons dismantlement and counterproliferation 
assistance.
    Senator Obama and I observed firsthand the United States 
efforts in both of these areas during visits to Ukraine and 
Azerbaijan last August. These visits and our subsequent joint 
research convinced us that the United States can, and should, 
do more in both of these areas. On November 1, 2005, we 
introduced Senate bill 1949, the ``Cooperative Proliferation 
Detection and Interdiction Assistance and Conventional Threat 
Reduction Act.'' Modeled after the Nunn-Lugar program, our new 
legislation seeks to build cooperative relationships with 
willing countries to secure vulnerable stockpiles of 
conventional weapons and to strengthen the ability of other 
nations to detect and interdict illicit shipments of weapons or 
materials of mass destruction.
    The Nunn-Lugar program must, and will, remain our flagship 
nonproliferation program. The elimination of threats at their 
source is the most effective means of preventing the spread of 
weapons of mass destruction. But the United States has the 
ability to perform multiple missions in response to 
proliferation threats. Focusing more attention on the threats 
posed by conventional weapons and improving the capabilities of 
other nations to interdict weapons of mass destruction can be 
achieved without negative consequences for the Nunn-Lugar 
program. The lessons learned from the Nunn-Lugar experience 
should be applied to other fronts in the fight against 
terrorism and weapons proliferation. To do less would be 
irresponsible and would forfeit critical national security 
opportunities.
    The first part of our legislation would energize the U.S. 
program against unsecured lightweight antiaircraft missiles and 
other conventional weapons. There may be as many as 750,000 
man-portable air defense systems in arsenals worldwide. The 
State Department estimates that more than 40 civilian aircraft 
have been hit by such weapons since the 1970s. In addition, 
loose stocks of small arms and other weapons help fuel civil 
wars in Africa and elsewhere and provide the means for attacks 
on peacekeepers and aid workers seeking to stabilize war-torn 
societies. In Iraq, we have seen how unsecured stockpiles of 
artillery shells and ammunition have been reconfigured into 
improvised explosive devices that have become the insurgents' 
most effective weapon. Senator Obama and I are attempting to 
ensure that everything possible is being done to secure such 
stockpiles worldwide.
    American efforts to safeguard conventional stockpiles are 
underfunded, fragmented, and in need of high-level support. The 
U.S. Government's current response is spread between several 
programs at the Department of State. The planning, 
coordination, and implementation of this function should be 
consolidated into one office at the State Department with a 
budget that is commensurate with the threat posed by these 
weapons.
    The second part of the Lugar-Obama legislation would 
strengthen the ability of America's friends and allies to 
detect and intercept illegal shipments of weapons and materials 
of mass destruction. American forces cannot be everywhere at 
once. Our security depends not just on the willingness of other 
nations to help; it depends on whether they have the 
capabilities to be effective. The State Department engages in 
several related antiterrorism and export control assistance 
programs. But these programs are focused on other stages of the 
threat, not on detection and interdiction. Thus, we believe 
there is a gap in our defenses that needs to be filled.
    The Proliferation Security Initiative has been successful 
in enlisting the help of other nations for detection and 
interdiction operations. But some PSI countries lack the 
capabilities to be active and effective partners. Lugar-Obama 
seeks to improve the capabilities of foreign partners by 
providing equipment, training, and other support. Examples of 
such assistance may include maritime surveillance and boarding 
equipment, aerial detection and interdiction capabilities, 
enhanced port security, and the provisions of hand-held 
detection equipment and passive WMD sensors.
    The legislation would create a new office at the State 
Department to support and coordinate U.S. assistance in this 
area. Existing foreign assistance law contains discretionary 
authority for the Secretary of State to establish a list of 
countries that should be given priority in U.S. 
counterproliferation funding. It is our view that these efforts 
have been insufficient. As a result, we believe that such a 
program should be mandatory.
    The Lugar-Obama bill sets aside $110 million to start up 
the program and proposes an innovative use of current foreign 
military financing assistance. Under the bill, the President 
would ensure that countries receiving foreign military 
financing would use 25 percent of these funds on weapons of 
mass destruction interdiction and detection capabilities, 
unless the President determines that U.S. national security 
interests are not served by doing so. This offers a potent but 
flexible tool to build a robust international network to stop 
proliferation.
    Senator Obama and I have sought to work closely with the 
administration on our legislation. We have raised the issue in 
several venues and have been given general statements of 
support. Today, we are eager to finally receive an official 
reaction from the administration and to discuss ways in which 
our legislation can be perfected.
    I believe that the Bush administration recognizes the 
problems that we are trying to address. Last month, Senator 
Obama and I wrote to Secretary Rice urging full funding for 
programs aimed at counterproliferation and safeguarding 
conventional weapons stockpiles. I am pleased that funding for 
the Nonproliferation, Antiterrorism, Demining and Related 
Programs account received a $43 million increase in the 
administration's budget request over the amount enacted last 
year.
    Historically, however, new threat reduction techniques and 
proposals have not always been warmly received by the executive 
branch. I remember well the initial executive branch reaction 
to the introduction of the Nunn-Lugar program in 1991.
    Senator Sam Nunn and I were told by the administration that 
the United States was already doing everything necessary to 
address the problems posed by the proliferation of weapons of 
mass destruction and the collapse of the Soviet Union. We were 
astounded by this response, because other sources, including 
Russian military leaders themselves, who had come to visit with 
us, were describing rampant difficulties with the security 
around weapons of mass destruction. They voiced their fears of 
an emerging black market in WMD fueled by economic desperation 
and collapsing governmental authority. Only months later, after 
Defense Department officials were on the ground in Russia 
witnessing the problem, did the administration begin to 
recognize the urgency of the situation.
    The proliferation threats that Senator Obama and I have 
witnessed may be less comprehensive than those that confronted 
the United States at the genesis of the Nunn-Lugar program. But 
the problems are obvious, nonetheless. Moreover, these security 
gaps exist in an era when we know that terrorist groups are 
actively seeking both weapons of mass destruction and lethal 
conventional arms.
    We have seen these vulnerable stockpiles in person, and we 
are resolved to do something about them. We understand that the 
United States cannot meet every conceivable security need 
everywhere in the world. But filling the security gaps that we 
have described should be near the top of our list of current 
priorities. We are asserting that these problems have not 
received adequate attention.
    Senator Obama and I are hopeful for a constructive response 
that recognizes the nuances of the threats involved and the 
necessity of preventing bureaucratic obstacles to action. We 
are hopeful for a partnership with the administration that 
assigns these tasks a high priority. We look forward to working 
closely with the administration to get this done.
    To assist the committee in our evaluation today, I am 
pleased to recognize our friend, Under Secretary of State Bob 
Joseph. Under Secretary Joseph has been a good friend of this 
entire committee and a tireless advocate for U.S. national 
security through his work on the Proliferation Security 
Initiative, Libya's renunciation of weapons of mass 
destruction, and many other important projects. We especially 
appreciate his willingness to appear today, given the intense 
schedule he has undertaken with regards to the Iranian nuclear 
issue.
    We thank you in advance for being with us to share the 
administration's views of the legislation and to help us 
through important nonproliferation and threat reduction issues.
    Before calling on Secretary Joseph, I'd like to call upon 
the distinguished ranking member of the committee, Senator 
Biden, for his opening statement.

 OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR 
                         FROM DELAWARE

    Senator Biden. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary. Thanks for making the time to be here. And thank 
you, Mr. Chairman, for holding this hearing. The spread of 
weapons of mass destruction and conventional weapons like 
shoulder-fired missiles, quite frankly, may be the gravest 
threat to our country today, especially if those weapons end up 
in the hands of terrorists. We need to keep close watch on 
these issues in all their complexity, and the administration, 
it seems to me, has to give more than a voice to our fears 
here. It needs to address this issue in a practical way, and I 
think you and our colleague, Senator Obama, have suggested a 
way that may be a route to that. I especially commend you for 
introducing legislation to bring more order and funding to the 
State Department's effort to control the proliferation of small 
arms/light weapons, surface-to-air missiles, and tactical 
missiles.
    These weapons are, as I said, not weapons of mass 
destruction, but they cause more deaths and destruction year in 
and year out and around the globe than all the world's 
strategic weapons. From Colombia and the Andes to Central 
Africa and South Asia, the automatic weapon in the hand of a 
criminal, the explosives and missiles in the hands of a 
terrorist, pose a tremendous threat to U.S. personnel and 
interests as well as to friendly governments and societies. And 
although our gravest concern is dealing with what Nunn-Lugar 
has put us on the path to deal with--and that has not been 
embraced as fully, in my view, as it should be, although it's 
better now--we can't take our eyes off the ball on this matter. 
We ought to be able to walk and chew gum at the same time. I 
have a few notions about S. 1949. It may need some amendment 
before we report it out; but I fully expect to be a supporter 
of the bill at the time it's reported out, and I hope the 
administration will also support S. 1949, the Lugar-Obama bill.
    It seems to me the effort should be a collaborative one 
here, and I hope the Secretary's here to offer support and 
constructive criticism, if any, to make this bill better if 
that's possible. Proliferation is an issue that demands 
cooperation among all of us who recognize the need to do more. 
Mr. Chairman, Under Secretary Joseph is, of course, a senior 
policymaker regarding WMD as well, and I would admit at the 
outset that I may take advantage of your presence, Mr. 
Secretary, to ask you a few questions about nuclear programs of 
Iran and North Korea if that's permissible. We need to know 
where you're going, and I think your, quite frankly, editorial 
comment moved in the right direction on Iran. I'm not sure 
about Korea, but at some point, maybe we can talk about that as 
well. Notwithstanding, the central focus is this legislation. 
So, I thank both my colleagues for their initiative, and I 
thank the Secretary for being here.
    The Chairman. Well, thank you very much, Senator Biden, for 
your opening statement. I'd like to call upon our colleague, 
Senator Obama, for his opening statement.

   OPENING STATEMENT OF HON. BARACK OBAMA, U.S. SENATOR FROM 
                            ILLINOIS

    Senator Obama. Thank you so much, Mr. Chairman. I don't 
think I can do a better job than you have along with our 
ranking member, Senator Biden, in laying out the issue as you 
just did. So, I'm going to try to keep my opening remarks 
relatively short. Mr. Secretary, thank you for taking the time 
to be here. You know, first of all, I want to thank our 
chairman, Senator Lugar, for your tireless leadership on this 
issue, for holding this hearing and for letting me work with 
you to introduce what I believe is a very good bill. And I want 
to thank Senator Biden for his insights and his long track 
record of good work on nonproliferation issues. And I think 
that Senator Biden's absolutely right. We've introduced this 
legislation. We want to fine tune it. We want to be in a 
cooperative relationship with the State Department to make sure 
that it works, but we think that this is something that needs 
to be done.
    The Lugar-Obama legislation, S. 1949, does two basic 
things. First, it enhances our ability, working with friends 
and allies to detect and intercept illegal shipments of weapons 
and materials of mass destruction. Second, the bill bolsters 
ongoing efforts to destroy conventional weapons such as 
lightweight antiaircraft missiles. As the chairman pointed out 
in his opening statement, many of these efforts are 
underfunded, they're fragmented and in need of high-level 
support. I take note of the chairman's comments that new threat 
reduction proposals, even the Nunn-Lugar program, are not 
always received warmly by the executive branch. I agree with 
your testimony, Secretary Joseph, that the Department does need 
flexibility to deal effectively with global threats and 
international diplomacy, but that isn't, as I see it, the issue 
before us today. Every member of this committee wants to give 
the State Department the flexibility it needs. The issue here 
today is whether the State Department can use additional 
resources and coordination to more effectively deal with two 
critically important threats, interdiction of WMDs and the 
destruction of conventional weapons, and I believe that it can.
    I'm also concerned that the issue just simply does not get 
the attention it deserves within the State Department. I know 
that both the President and Secretary Rice have expressed their 
commitment to nonproliferation, proliferation issues, but four 
key State Department interdiction and nonproliferation programs 
are either flat lined or slated for only modest increases in 
the President's budget. Meanwhile, a $1.2 billion increase is 
proposed for the Millennium Challenge Account, which will 
provide funding to such nations as Cape Verde, Madagascar, and 
Vanuatu.
    I'm supporting the MCA, and I'm not saying these countries 
aren't worthy of assistance, but, you know, a budget is about 
prioritizing strategic objectives, and in my view, the 
priorities don't appear appropriately and aligned with the 
strategic threats we confront today. Secretary, despite my 
concerns, I'm hopeful we can work together to make an 
adjustment in our budget priorities with the regard to Lugar-
Obama. I'm also confident that we can work in a collaborative 
spirit to make a good bill even better. I would just make--add 
one personal note. You know, I recently returned from Iraq. 
Both of you have made these trips. Joe, you've been there 
repeatedly. This was my first trip, and, you know, we toured in 
a Black Hawk helicopter with the vest and the helmet on. The 
same day that I was flying to Fallujah and Kirkuk was the same 
day that another Black Hawk further north got shot down, and--
or something happened where 12 of our brave marines were 
killed.
    And we don't know exactly what happened, but I guess I 
would simply make the point that if it was a shoulder-to-air 
missile, which is possible, then those lives could potentially 
have been saved if we did not have the kind of proliferation 
that we do and the ease with which MANPADS may be available on 
the black market. Heaven forbid if these got into the hands of 
terrorists and there was a commercial flight that was targeted. 
So, you know, I just think that when we're thinking about our 
defense systems and our security, that this has to be at the 
top of the priority list. Thank you very much, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Obama. 
I'll just add one more anecdotal note before I ask you for your 
testimony. A year ago, in the summer of 2004, I went with 
Cooperative Threat Reduction personnel to Albania. That was on 
a mission that had been initiated by the Albanians, who were 
requesting help in trying to secure nerve gas, as it turned 
out, 16 metric tons. It was an interesting trip because it was 
the first extension of the Nunn-Lugar Program outside of the 
United States. We had sent memos back to Secretary Powell, 
eventually the President of the United States, for a signature 
to obtain the $20 million dollars that are now being utilized 
to neutralize that nerve gas. In the spirit of the day, the 
Albanians took us to sheds in which there were 79 MANPAD 
missiles, beyond our recognition or knowledge other than the 
fact that in the spirit of the occasion, they agreed to destroy 
them with our assistance. They are not covered by Nunn-Lugar. 
They're not covered by anything, but it led to, at least, some 
thoughts as to how they got there, the origins and the 
international relations that are complex.
    As we've mentioned, they are not the only 79 in the world. 
The thousands that are out there are important. But it is an 
issue that you've been dealing with, sir, and so we want to 
appreciate both the need for flexibility, and the resources, as 
these opportunities become available. Would you please proceed 
with your testimony?

  STATEMENT OF ROBERT G. JOSEPH, UNDER SECRETARY OF STATE FOR 
 ARMS CONTROL AND INTERNATIONAL SECURITY, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Joseph. Mr. Chairman, Senator Biden, Senator Obama, 
thank you very much for the opportunity to testify today. It's 
always an honor to appear before this very distinguished 
committee. Today, I've been asked to talk about the role of the 
State Department in implementing several key aspects of the 
President's strategy to combat weapons of mass destruction and 
to reduce the threat of dangerous conventional arms. I have 
provided a written statement to the committee which I would 
like to summarize.
    The Chairman. We made it a part of the record in full.
    Mr. Joseph. Thank you, Senator. Let me say from the outset, 
as I said during my confirmation hearing this past spring, we 
very much want to work closely together with you and your 
staffs, as we are doing, to achieve what I know are shared 
goals. Your letter of invitation to me to testify today lays 
out the broad objectives that S. 1949, the Lugar-Obama bill.
    Specifically, you stated that the United States must do 
more to assist others in detecting and interdicting weapons of 
mass destruction and in eliminating conventional weapons 
stockpiles that pose a security threat. As you know, I fully 
share those objectives as well as the need that you point out 
in the legislation to give greater focus to the threat and to 
improve the coordination of both policies and programs within 
the State Department, within the Interagency, and at a 
multinational level. We are working to achieve these same 
objectives, from stopping the proliferation trade to ending the 
humanitarian and security threats posed by surplus and 
abandoned conventional weapon stockpiles, including, of course, 
the key threat that we face from MANPADS, in the wrong hands.
    There are a number of elements of S. 1949 that I believe 
are very helpful. At the most general level, through your 
sponsorship, you bring new and needed attention to these 
priority objectives, shining the spotlight where it is needed 
as you did in your speech at the United Nations on Monday. At 
the operational level, the legislation offers an important, 
broader definition of conventional arms, which is in keeping 
with the comprehensive nature of the threat, again, even as it 
puts needed emphasis and priority on the danger of MANPADS.
    We also, of course, welcome the provision to provide 
permanent authority for the use of NDF funds outside the former 
Soviet States. But just as there are positive elements, we do 
have some problems. The President and his administration have 
devoted higher priority and more funding to nonproliferation 
and counterproliferation and weapons reduction assistance than 
any of our predecessors.
    However, the United States, even when we are joined with 
very active partners, cannot do everything at once. Therefore, 
as I've discussed with your staff, and as I know you agree, we 
must establish priorities, especially in a constrained funding 
environment. But I would point out that even in this 
environment, the President's request for nonproliferation and 
conventional weapons destruction elements of the 
Nonproliferation, Antiterrorism, Demining and Related programs, 
or NADR account, would rise by a significant percentage 
compared to the estimate for FY06.
    Mr. Chairman, conventional weapons destruction is a 
significant challenge, and it does require resources that are 
matched to the scope of the problem. Yet, it's one of a number 
of challenges that we face, and resources cannot come from 
other priorities of equal of greater value. We carefully 
considered our funding proposal in light of the current budget 
environment and other needs. Any additional requirements that 
are imposed outside of the normal budgetary process would limit 
our ability to implement the Secretary's other priorities.
    In that regard, the Department is concerned at the 
requirement in S. 1949 to devote specific percentage amounts 
from the NADR and the Foreign Military Financing programs for 
WMD detection, interdiction, and conventional arms reductions. 
While those objectives are clearly important, and we share 
them, the designation of funds required by the legislation 
could lead us to devote resources to efforts which other 
agencies may be better suited to fund and could also prevent us 
from implementing what may be higher priority programs in which 
the State Department funds might best be used.
    Further, we do not support the organizational changes 
called for in S. 1949, but not because we disagree with their 
purpose. On the contrary, we believe that the recent 
restructuring in the State Department configures as well to 
pursue the objectives of the legislation in both 
counterproliferation and conventional weapons reduction. As you 
know, and as you supported, Senator, we have created a new 
Bureau of International Security and Nonproliferation, a new 
post of Principal Deputy Assistant Secretary for 
Counterproliferation and new offices responsible for 
counterproliferation initiatives, WMD terrorism, and strategic 
planning. The Office of Counterproliferation Initiatives is 
bringing new focus to the Department's counterproliferation 
efforts including the Proliferation Security Initiative and 
other defensive measures against proliferation. The Office of 
WMD Terrorism directly confronts the nexus between terrorism 
and WMD and is working to help build the capabilities of our 
friends and allies to prevent, protect against, and respond to 
the use or threat of use of WMD by terrorists.
    The Office of Strategic Planning and Outreach undertakes 
planning, program analysis, and evaluation to encourage new and 
innovative thinking to meet today's and tomorrow's threats. 
We've also retained the relatively new Office of Weapons 
Removal and Abatement in the Bureau of Political Military 
Affairs to provide a strategic focus on the growing 
conventional weapons proliferation threat.
    This office, which we formed in 2003, unites formerly 
separate units responsible for humanitarian demining, mine 
action, and small arms and light weapons initiatives allowing 
our organizational structure better to pursue the comprehensive 
approach to this problem that is required and that I believe is 
envisaged in S. 1949.
    The Department of State is taking an active leadership role 
in pursuing both counterproliferation and conventional weapons 
destruction goals reflecting the strong personal commitment of 
the Secretary and my own. These areas are important priorities 
both within the State Department and more broadly within the 
administration.
    The Department vigorously leads U.S. efforts to deepen the 
international foundation for action against proliferation. 
Examples include the progress we have made in elevating 
proliferation to a core concern of G-8 leaders, the passage of 
the landmark U.N. Security Council Resolution 1540 and the 
creation and expansion of the Proliferation Security 
Initiative.
    This past fall, I traveled to Central Asia, East Asia, and 
the Middle East to expand international efforts to broaden 
active participation in PSI by states in those regions. I 
emphasized to the governments in Central Asia the need to 
cooperate more with us in improving WMD detection and 
interdiction, and they have responded positively. Outside of 
PSI specifically, the same is true with South Korea and others. 
Next week, we will have our first meeting of a new 
counterproliferation task force with the United Arab Emirates, 
which as you know is a critical transshipment point. While much 
of the specific operational work for detection and interdiction 
is carried out by other agencies, for example, the Department 
of Defense and the Department of Homeland Security, the State 
Department's Export Control and Border Security Program does 
help to build partner's capacity to participate effectively in 
PSI, and the department overall takes the diplomatic lead in 
establishing priorities for fostering and implementing these 
vital efforts. We admittedly, as a department and as an 
administration, need to do even more in these areas, especially 
in effective prioritization of and follow through on detection.
    But as you know, increasing our capacity for WMD 
interdiction is about much more than money and assistance. We 
have requested an increase in NADR funds for 2007 related to 
WMD interdiction for projects that would help partners improve 
their overall interdiction capability. At its core however, 
increasing WMD interdiction is even more about increasing 
active cooperation through PSI and other means. Many of these 
collaborative efforts with our friends and allies are with 
partners who do not need our assistance, but who do contribute 
greatly through information sharing and through coordination of 
capabilities, both with regard to military and law enforcement 
action.
    In contrast, the role of the Department in conventional 
weapons elimination is both diplomatic and programmatic. 
Working with other agencies and other governments, we provide 
site surveys, assistance for physical security and stockpile 
management and for demining and destruction of excess weapons 
and munitions. In some cases, like Cambodia and Bosnia, our 
dealing with landmine problems has given us access to small 
arms and light weapons, particularly MANPADS. We have fully 
integrated programs to address land mines, ordnance and small 
arms/light weapons in Iraq, Afghanistan, and Sudan, and we are 
working to do the same in several other countries.
    For a relatively small amount of money, the Department of 
State with the assistance, of course, of the Department of 
Defense and others, has destroyed or disabled over 17,000 at-
risk MANPADS, and we have commitments for the destruction of 
over 7,000 more. The Department looks forward to working with 
this committee to address how best to enhance our ability to 
meet the full spectrum of WMD missile and conventional threats 
that we face as a nation.
    As I mentioned, more flexible funding authority could help 
us take on higher priority tasks, some unforeseen for which 
other agencies or other governments are not as well equipped. 
We also would welcome an extension of the period covered by our 
Conventional Arms Destruction funds. At the moment, most of 
those appropriations are good for only 1 year. It often takes 
that much time, if not more, to agree with a government on a 
program, let alone to start it or to complete it.
    Mr. Chairman, on behalf of the Department, I would like to 
thank you and other members of your committee for your 
leadership and support as we have worked to confront the threat 
of weapons of mass destruction, missiles, and dangerous 
conventional arms. As I've described, we've been working hard 
to develop innovative and more effective tools. We have had 
considerable success, but there is still much to be done.
    Again, I look forward to working with you and the committee 
to insure that the Department implements fully the 
transformational diplomacy that is required to protect the 
American people, our friends, and our allies from the threats 
of the 21st century.
    Thank you, sir.
    [The prepared statement of Mr. Joseph follows:]

 Prepared Statement of Hon. Robert G. Joseph, Under Secretary of State 
   for Arms Control and International Security, Department of State, 
                             Washington, DC

    Mr. Chairman, distinguished members of the committee, I am pleased 
to have the opportunity to discuss with you, today, the role of the 
State Department in implementing the President's strategy against 
weapons of mass destruction (WMD), as well as in reducing the threat of 
dangerous conventional arms.
    From his first days in office, President Bush has given the highest 
priority to combating WMD and missile proliferation, and has developed 
many new measures to counter this challenge. The administration began 
by fashioning the first truly national, comprehensive strategy for 
preventing and protecting against the proliferation threat. The 
National Strategy to Combat WMD, issued publicly in December 2002, 
readily acknowledged that the starting point, and initial line of 
defense, is to prevent proliferation. However, we also knew that 
prevention would not always succeed. Therefore, the strategy placed new 
emphasis on protection from, and response to, the use of these weapons 
against the United States, our friends, and our allies. For this 
reason, we are building the counterproliferation capabilities to deter, 
defend against, and defeat weapons of mass destruction in the hands of 
our enemies, and we are acquiring the ability to contain and reduce the 
potentially horrific effects if these weapons are used against us.
    The three pillars of our strategy--counterproliferation, 
nonproliferation, and consequence management--do not stand alone, but 
rather come together as elements of a unified approach. Underlining 
that point, the National Strategy identifies four crosscutting 
functions that are essential to combating WMD: Improved intelligence 
collection and analysis, research and development, bilateral and 
multilateral cooperation, and tailored strategies against hostile 
states and terrorists. We must bring all elements of our strategy to 
bear in our targeted effort against WMD and missile proliferation. To 
that end, the Department of State works closely with the National and 
Homeland Security Council Staffs, the Departments of Treasury, Defense, 
Justice, Commerce, Energy, Homeland Security, Health and Human 
Services, and Agriculture, and the Intelligence Community.
    While the threat from WMD and their delivery systems must be our 
highest priority, we are also working actively to reduce the massive 
stocks of surplus conventional arms worldwide. Landmines, unexploded 
ordnance, aging and poorly secured weapons stockpiles, and abandoned 
munitions all create humanitarian as well as security dangers. In too 
many parts of the globe, they harm innocent civilians, threaten our 
Armed Forces and those of our allies, weaken the stability of friends, 
and contribute to the creation of large ``ungovernable'' areas 
effectively outside of state control and open to terrorism.
       transformational diplomacy/state department reorganization
    When Secretary Rice began her tenure, she challenged the State 
Department to transform the way we think about diplomacy and consider 
how we might best use our diplomatic tools to meet the threats of 
today, not of yesterday. Contemporary diplomatic efforts to counter WMD 
and missile proliferation and the accumulation of dangerous 
conventional weapons stocks bear little resemblance to those of the 
past. No longer do we engage in ponderous and lengthy negotiations that 
focused primarily on the offensive forces of two antagonistic 
superpowers.
    We have worked to improve our ability to use effective diplomacy to 
meet today's and tomorrow's threats by restructuring the State 
Department arms control and nonproliferation organization to deal with 
contemporary realities, such as black markets, front companies, and 
global terrorist networks. To that end, we have created a new Bureau of 
International Security and Nonproliferation, a new post of Principal 
Deputy Assistant Secretary for Counterproliferation, and new offices 
responsible for Counterproliferation Initiatives, WMD Terrorism, and 
Strategic Planning. We have also expanded the portfolio of, and renamed 
accordingly, the Cooperative Threat Reduction Office.
    The Office of Counterproliferation Initiatives takes the lead for 
the Department in developing, implementing, and improving 
counterproliferation measures. It has brought new focus to the 
Department's counterproliferation efforts, including the Proliferation 
Security Initiative and other defensive measures against proliferation, 
and implementation of financial efforts such as Executive Order 13382 
relating to proliferation financing. By working with the other agencies 
of the U.S. Government, the new Counterproliferation Initiatives Office 
can leverage our ability to work with other governments to plan and 
carry out interdiction of WMD shipments, build political will and 
national capacity to impede WMD-related shipments, and coordinate 
multinational activities including implementation of U.N. Security 
Council Resolution 1540. The Office of WMD Terrorism directly confronts 
the nexus between terrorism and WMD. It is developing policies and 
plans, directing, initiating, and coordinating activities to help build 
the capabilities of our friends and allies to prevent, protect, and 
respond to the threat or use of WMD by terrorists. The Office of 
Strategic Planning and Outreach undertakes strategic and long-range 
planning, program analysis, and evaluation to encourage new and 
innovative thinking to meet today's and tomorrow's threats.
    In another important element of the State Department's 
restructuring, we have expanded the responsibilities of the former 
Bureau of Verification and Compliance, now named the Bureau of 
Verification, Compliance and Implementation (VCI). In doing so, we have 
enhanced our ability to pursue the achievement of critical treaty 
requirements: Implementation, effective verification, and full 
compliance. VCI now oversees the implementation of many existing treaty 
commitments, some of long standing. It also is responsible for ensuring 
full, verified compliance with all arms control and nonproliferation 
commitments, including more modern ones, which may not involve detailed 
written agreements. A key example of the latter is implementation of 
Libya's historic December 2003 decision to eliminate its WMD and longer 
range missile programs. Under the direction of the Proliferation 
Strategy Policy Coordinating Committee, VCI is also now leading 
interagency efforts to develop our concepts for the verified 
denuclearization of North Korea, consistent with the September 19, 
2005, Six-Party Talks Joint Statement.
    Finally, in 2003, we created the Office of Weapons Removal and 
Abatement within the Bureau of Political-Military Affairs to provide a 
strategic focus on the growing conventional weapons proliferation 
challenge. Uniting formerly separate units responsible for Humanitarian 
Demining, Mine Action, and Small Arms/Light Weapons initiatives, the 
established mission of this Office clearly describes its comprehensive 
approach: ``to develop policy options, implement destruction and 
mitigation programs, and engage civil society in order to reduce the 
harmful worldwide effects generated by indiscriminately used illicit 
and abandoned conventional weapons of war.''
                    s. 1949--lugar-obama legislation
    Mr. Chairman, the Department of State fully shares the core 
objectives of the proposed ``Cooperative Proliferation Detection, 
Interdiction Assistance, and Conventional Threat Reduction Act of 
2005.'' We have transformed our internal organization to provide the 
focus on proliferation detection, interdiction, and conventional 
weapons destruction that the legislation envisages. The administration 
as a whole has developed an effective interagency structure for 
interdiction to coordinate efforts quickly and effectively. We are now 
working to augment our capacity for detection and interdiction, to 
expand our programs worldwide, and to ensure that they fully meet their 
intended purpose--to prevent dangerous WMD-related shipments from 
reaching their intended destination. We are also expanding our efforts, 
and cooperating closely with other agencies and governments, to destroy 
or disable man-portable air defense systems (MANPADS), persistent 
landmines, small arms/light weapons, and other conventional arms of 
greatest concern.
    The Department looks forward to working with the committee to 
address how best to enhance our ability--and to assist our partners to 
enhance their ability--to meet the full spectrum of WMD, missile, and 
conventional threats. In particular, flexible funding authority can 
help us to take on high priority tasks, some unforeseen, for which 
other agencies--or other governments--are not as well equipped. A good 
example of the importance of such flexibility was our ability to use 
the Department of State's Nonproliferation and Disarmament Fund (NDF) 
to help implement, rapidly, the elimination of Libya's WMD and longer 
range missile programs. Without that flexibility, we could not have 
removed, quickly, Libya's UF6, centrifuge equipment, uranium metal 
casting gear, or SCUD-C ballistic missiles. We fully support section 
106 of S. 1949, which would permanently authorize NDF activities to be 
conducted outside the former Soviet States.
    The President and his administration have devoted higher priority, 
and more funding, to nonproliferation and weapons reduction assistance 
than any of their predecessors. The President also has spearheaded 
efforts like the G-8 Global Partnership Against the Spread of Weapons 
and Materials of Mass Destruction to increase dramatically the 
contribution of our international partners in this area. However, the 
United States, even when joined by active partners, cannot do 
everything at once. Therefore, we must establish priorities.
    In that regard, the Department is concerned at the requirement in 
S. 1949 to devote specific amounts from our Nonproliferation, 
Antiterrorism, Demining and Related Programs (NADR), and our Foreign 
Military Financing (FMF) program to help other states with WMD 
detection, WMD interdiction, and conventional arms reduction. While 
these objectives are certainly important, the designation of funds as 
required by the legislation could lead us to devote funds to efforts 
for which other agencies--for example, the Departments of Defense and 
Homeland Security on interdiction or the Departments of Energy and 
Homeland Security on detection--may be better suited to develop and 
manage. Potentially, even more significant, such designation of funds 
could also prevent us from implementing what may be higher priority 
programs--support to capacity-building against WMD terrorism might be a 
good example--in which State Department funds might best be used.
    Let me emphasize that our concerns about this aspect of the 
proposed legislation do not in any way imply that we do not place great 
importance on the tasks it outlines, or that we do not agree that far 
more remains to be done in these vital security areas. I look forward 
to consulting with this committee to ensure we have the tools to carry 
out these missions in the most efficient, cost-effective manner 
possible.
                     accomplishments and challenges
    I would like now to outline, briefly, some of our key 
accomplishments--and challenges that remain--in combating WMD 
proliferation and reducing the threat from conventional weapons.
    We are taking a broad range of defensive measures--using numerous 
instruments, policies, and programs--to protect ourselves from WMD 
proliferation and WMD-armed adversaries. At one end of the spectrum are 
those measures that prevent proliferators from gaining access to 
sensitive technologies and materials that could represent a shortcut to 
nuclear weapons. The Nunn-Lugar programs, and their spinoffs in the 
State Department and Department of Energy, are key to reinforcing other 
important measures such as working to ensure effective export controls 
by all states. It is noteworthy how these programs have evolved to meet 
today's threats; from an early focus on denuclearizing Ukraine, 
Belarus, and Kazakhstan and reducing the former Soviet strategic 
arsenal, to an increasing concentration on measures to prevent the 
proliferation of weapons of mass destruction and related materials.
    Detection is a critical part of that effort, with major 
contributions from my Department's Export Control and Border Security 
Program, the Department of Defense Cooperative Threat Reduction 
Program, the Department of Homeland Security's Container Security 
Initiative Program, and the Department of Energy's Second Line of 
Defense and Megaports Programs. For example, the Second Line of Defense 
Core Program has equipped 78 sites in Russia, with another 8 planned 
for this fiscal year. Recent agreements will allow installations to 
proceed in Slovenia, Ukraine, Georgia, and Azerbaijan. The Second Line 
of Defense Core Program has also assumed responsibility for maintaining 
detection equipment installed under several U.S. Government programs in 
23 former Soviet and Central European countries between 1992 and 2002. 
Megaports work is underway in 14 countries, with portal monitors having 
been installed so far in Greece, the Netherlands, and Sri Lanka. The 
Department of Homeland Security Domestic Nuclear Detection Office is 
developing a global nuclear detection architecture that will serve as a 
backdrop for these individual detection-related programs.
    Other defensive measures address the financial underpinnings of 
proliferation. United Nations Security Council Resolution 1540--adopted 
in April 2004 at the President's urging--requires states to adopt and 
enforce effective controls on funds and services related to export and 
transshipment that would contribute to state or nonstate WMD efforts. 
Consistent with Resolution 1540, G-8 leaders have called for enhanced 
efforts to combat proliferation through cooperation to identify, track, 
and freeze transactions and assets associated with proliferation 
activities.
    President Bush augmented U.S. efforts last June when he issued 
Executive Order 13382, which authorizes the U.S. Government to freeze 
assets and block transactions of designated entities and persons, or 
their supporters, engaged in proliferation activities and to prohibit 
U.S. persons from engaging in transactions with them. Currently 18 
entities--6 from Iran, as well as 11 from North Korea and one from 
Syria--have been designated under the order, and we are actively 
considering designating additional ones.
    One of the most important defensive measures by the Bush 
administration, of course, is PSI, involving close interaction among--
and the creative use of--diplomatic, military, economic, law 
enforcement, and intelligence tools to combat proliferation. PSI 
countries are applying laws already on the books in innovative ways and 
cooperating as never before to interdict shipments, to disrupt 
proliferation networks, and to hold accountable the front companies 
that support them. PSI has expanded to include support from more than 
70 countries and continues to grow. And it is working. PSI cooperation 
has prevented WMD- and missile-related shipments to Iran and from North 
Korea. And, of course, it was PSI cooperation among the United States, 
United Kingdom, and other European partners that began the demise of 
the A.Q. Khan proliferation network, and contributed importantly to 
Libya's decision to abandon its WMD and longer range missile programs.
    Regarding surplus conventional weapons, the threat requires a 
comprehensive solution not bound by limitations based on weapon type or 
size. The problem takes myriad forms, depending among other things on 
the region and on the host government's attitude toward the problem. 
The Department of State has developed a variety of tools to respond to 
each situation in an effective manner. We provide site surveys to 
assess areas affected by landmines or unexploded ordnance, or weapons 
and munitions storage facilities. We provide assistance for physical 
security and stockpile management and for demining and destruction of 
excess weapons or munitions. In some cases, like Cambodia and Bosnia, 
our demonstrated success dealing with landmine problems has been 
leveraged to gain access to small arms/light weapons, particularly 
MANPADS. We have created fully integrated programs capable of 
addressing landmines, ordnance, and small arms/light weapons in Iraq, 
Afghanistan, and Sudan, and are working to do the same in several other 
countries.
    Since 1993, the United States has allocated over $1 billion to 
address in 40 countries the humanitarian effects caused by the 
indiscriminate use of persistent landmines. Since 2001 we have 
destroyed over 800,000 small arms/light weapons and 80 million pieces 
of ammunition. S. 1949 rightly emphasizes the unique threat that 
MANPADS pose to civilian aviation. For a relatively small amount of 
money, the Department of State, with assistance from the Department of 
Defense and others, has had substantial success in destroying MANPADS 
at risk of falling into the hands of terrorists. We have destroyed or 
disabled over 17,000 at-risk MANPADS and have commitments for the 
destruction of over 7,000 more. Also, we are working in a number of 
international fora, including the United Nations, NATO, Wassenaar, the 
G-8, OSCE, OAS, and APEC, to create global political support for 
actions to reduce MANPADS and ensure they stay out of the hands of 
terrorists.
    In another important effort, 11 nations and the European Union have 
matched our funding for the NATO-Partnership for Peace project to 
destroy munitions, small arms, light weapons, and MANPADS in Ukraine. 
Our partners' contributions have doubled the funds available for the 
project. The United States is supporting similar programs in Tajikistan 
and Kazakhstan, and an assessment mission to Georgia took place in 
December 2005.
    I would now like to turn to four proliferation challenges.
    The first is to end the North Korean and Iranian nuclear weapons 
programs. President Bush has made clear that we will protect ourselves 
and our allies from these threats, and that all options remain on the 
table. He has made equally clear that our preference is to resolve them 
through diplomacy.
    In the joint statement agreed on September 19, 2005, at the Six-
Party Talks, North Korea committed to abandoning all its nuclear 
weapons and existing nuclear programs. This was a notable development, 
but we still must agree on, and implement, the detailed requirements of 
North Korean denuclearization and its verification. That task will 
certainly be difficult. Indeed, North Korea's behavior since the joint 
statement has underscored the difficulties ahead. First, it demanded a 
light water reactor immediately after the issuance of the joint 
statement--in contrast to what was in the joint statement itself. More 
recently, Pyongyang indicated that it would boycott further 
negotiations until the United States rescinds what North Korea calls 
``economic sanctions'' against it. We have made clear that we are 
committed to pursuing successful Six-Party negotiations, and are ready 
to resume the talks at any time. However, we have also made clear that 
we intend to continue, and will expand as necessary and appropriate, 
our defensive measures to ensure that we can protect ourselves from the 
proliferation threats from North Korea, as well as from its illicit 
activities, including money laundering and counterfeiting.
    In some ways, the challenge Iran poses to the nuclear 
nonproliferation regime is even more daunting and complex than the 
North Korean threat. Although the evidence--including Iran's 20 years 
of hiding sensitive nuclear fuel cycle efforts--clearly indicates a 
weapons program, Iran continues to maintain that its work is peaceful. 
Last week, in a significant victory for our efforts to deny Iran a 
nuclear weapons capability, the International Atomic Energy Agency 
(IAEA) Board of Governors reported Iran to the United Nations Security 
Council. The vote, which secured the support of all the Permanent 
Members of the Security Council as well as key states such as India, 
Egypt, and Brazil, sent a clear signal to the Iranian Government that 
it will not be able to divide the international community and continue 
its pursuit of nuclear weapons.
    We are entering a new phase of diplomacy where the Iranian regime 
is increasingly isolated and the international community increasingly 
united in calling on Iran's leaders to reverse course. The issue is now 
before the Security Council. We expect the Council to take up action on 
Iranian noncompliance after Director General ElBaradei's report to the 
March 6 meeting of the IAEA Board.
    The Security Council will not supplant the IAEA effort, but 
reinforce it--for example, by calling on Iran to cooperate with the 
Agency and to take steps the IAEA Board has identified to restore 
confidence, and by giving the IAEA new, needed authority to investigate 
all aspects of the Iranian nuclear effort. The Council should make 
clear to the Iranian regime that there will be consequences if it does 
not step away from its nuclear weapons ambitions. We will continue to 
consult closely with the United Kingdom, France, and Germany (the so-
called EU3) and the European Union, with Russia, China, and many other 
members of the international community as this new diplomatic phase 
proceeds.
    We have no illusion that reporting the Iran issue to the Security 
Council will produce a quick resolution of the threat that Iran 
presents. When faced with a challenge like that which we face from the 
Iranian regime--a government that is able to bring to bear many of its 
own tools--diplomacy will never be easy, nor will its results be 
immediate. But diplomacy remains essential and, despite the 
frustrations, is working. The Security Council offers the best next 
step for diplomacy to succeed.
    The second challenge is to end the proliferation trade by rogue 
states, individuals, and groups. We have made considerable progress 
over the last few years. We have moved from the creation of 
international export control standards to their active enforcement--
through enhanced national legislation, improved detection, 
interdictions, international law enforcement, and financial 
cooperation. We have shut down the world's most dangerous proliferation 
network and steadily reduced the opportunities available to 
proliferators. However, proliferators are quick to adapt to changing 
environments and move their business to less intrusive environments. We 
must continue to expand and deepen our efforts--using all available 
national and international authorities and, where necessary, creating 
new ones until the proliferation trade has been effectively ended.
    The third challenge that I would emphasize is the need to prevent 
terrorist acquisition and use of WMD, especially biological and nuclear 
weapons. If terrorists acquire these weapons, they are likely to employ 
them, with potentially catastrophic effects. A well-organized terrorist 
group with appropriate technical expertise could probably create a 
crude nuclear device once it gained access to fissile material. 
Although terrorist use of a radioactive dispersal device is far more 
likely, the consequences of a terrorist nuclear attack would be so 
catastrophic that the danger requires particular attention. On the 
biological weapons side, with today's dual-use capabilities and access 
to particular, dangerous pathogens--many of which exist in nature or 
could be relatively easily obtained and cultured--the bioterror 
challenge presents a low-cost means of a potentially high-impact 
attack.
    Many of the tools we have in place to combat proliferation by rogue 
states are important in the fight against WMD terrorism. A few examples 
are: Reducing the global stocks of fissile material; improved nuclear 
and biological detection capability; and the interdiction of 
trafficking in nuclear and biological materials and weapons components. 
However, preventing WMD terrorism requires different approaches from 
those we have followed against state WMD programs or against non-WMD-
related terrorism. For example, intelligence collection and action 
against the proliferation of WMD have traditionally focused on state-
based programs, while antiterrorist intelligence has focused on 
individuals and groups. Intelligence regarding the nexus of terrorism 
and WMD must cover the full range of state and nonstate threats and 
their interrelationships. We are working hard to close any remaining 
gaps and to ensure that the intelligence process supports our strategic 
approach to combating WMD terrorism. The National Counterterrorism 
Center's ongoing efforts and the recent establishment of the National 
Counterproliferation Center are critical steps to ensuring better 
integration and responsiveness across the U.S. Government against the 
WMD terrorism threat. The Department of State will continue to work 
closely with both centers and with all agencies to produce targeted 
strategies, to synchronize resources to disrupt terrorist groups 
seeking to acquire or use WMD, and to deter and defeat those who may 
provide terrorists with safe haven or support.
    Any effective strategic approach will entail working with partner 
nations to build a global layered defense to prevent, detect, and 
respond to the threat or use of WMD by terrorists. To prevent, we will 
undertake national, multilateral, and global efforts to deny terrorists 
access to the most dangerous materials. To protect, we will develop new 
tools and capabilities with partner nations to detect the movement of 
WMD and to disrupt linkages between WMD terrorists and their 
facilitators. Because we can never be certain of our ability to prevent 
or protect against all potential WMD terrorist attacks, we will 
cooperate with partners to manage and mitigate the consequences of such 
attacks, and to improve our capabilities to attribute their source. 
Thus, we will work to harness, in an effective multinational way, all 
relevant collective resources to establish more coordinated and 
effective capabilities to prevent, protect against, and respond to the 
global threat of WMD terrorism.
    Finally, we must address the challenge of the huge remaining 
stockpiles of dangerous conventional weapons. The United Nations 
estimates that over 600 million small arms/light weapons are in 
circulation worldwide. Of these, an estimated 1 to 3 million are in 
Nigeria, where there are 100 active militias in the Rivers State alone. 
Huge cold-war-era stocks in Central and Eastern Europe present a 
dangerous legacy. According to the Russian Government, over 15,000 
small arms and light weapons were stolen from Defense and Interior 
Ministry stockpiles and units between 1994 and 2001. One and a half 
million tons of munitions in Ukraine have been declared surplus, and 
340,000 tons require urgent disposal. Albania, Bosnia and Herzegovina, 
and Bulgana each have tens of thousands of tons of surplus ammunition. 
We estimate that since the 1970s, over 40 civilian aircraft have been 
hit by MANPADS, causing 25 plane crashes, primarily in war zones, and 
over 600 deaths. More than 100 countries are affected, and 
approximately 20 are heavily affected, by landmines and/or unexploded 
ordnance.
    The challenge posed by these conventional weapons is massive, but 
well-targeted assistance has achieved--and will continue to achieve--
positive, cost-effective results. The Department of State has made 
great strides over the last few years in addressing this threat, but we 
have yet to realize our full potential. Working closely with other 
agencies and with other governments, we look to greater progress in the 
future. We also know we must work closely with Congress in meeting this 
essential national security goal. We greatly value and appreciate the 
support of this committee and the Senate more broadly.
                               conclusion
    Mr. Chairman, on behalf of the Department of State and the 
administration, I would like to thank you for your vision, leadership, 
and support as we confront the threat of weapons of mass destruction, 
missiles, and dangerous conventional arms. As I have described, we have 
been working hard to develop innovative and more effective tools. We 
have had considerable success, but there is much that still needs to be 
done. I look forward to working with you and the committee to ensure 
that the Department implements fully the transformational diplomacy 
required to protect the American people, our friends and allies from 
the threats of the 21st century.

    The Chairman. Well, thank you very much, Secretary Joseph. 
Let me correct the record. I misspoke in my last comments 
before you began when I talked about the Albanian experiences, 
the first outside the United States. I meant to say outside of 
Russia. That has been the purview of the cooperative threat 
reduction situation. I have several questions, and I want to 
suggest that we will have a time limit of 10 minutes a round so 
that we can proceed, and then we'll come back and raise 
questions that we were not able to raise in the first 10 
minutes.
    Let me start, Secretary Joseph, by saying that Congress has 
specifically authorized the President to provide countries with 
proliferation interdiction assistance under chapter 9 of part 
II of the Foreign Assistance Act of 1961. The relevant 
provisions state that the President should insure that not less 
than 25 percent of the assistance provided in that chapter is 
expended on transit interdiction.
    More specifically, it calls on the President to enhance the 
capabilities of friendly countries to detect and interdict 
proliferation related shipments of cargo that originate from or 
are destined for other countries. It goes on to suggest that 
priority should be given to any friendly country that has been 
determined by the Secretary of State to be a country frequently 
transited by proliferation-
related shipments of cargo.
    My question is to you, Secretary Joseph. Do you believe 
that chapter 9 of the Foreign Assistance Act currently provides 
all the authority the Department needs to coordinate and 
implement proliferation detection and interdiction assistance?
    Mr. Joseph. Senator, I believe that it does, and I believe 
that based on the fact that no one has raised the issue that we 
require more authorities for that purpose. And I devote an 
enormous amount of my time to this issue, and if there had been 
a, you know, a suggestion of a problem, I probably would have 
been informed of that.
    The Chairman. Let me follow up on that same general area. 
Is it your view the Department is currently following all the 
provisions of chapter 9 of part II of the Foreign Assistance 
Act, in particular, with regard to: One, establishing a list of 
countries that should be given priority in U.S. transit 
interdiction funding; and two, insuring that not less than 25 
percent of chapter 9 funds are used for transit interdiction?
    Mr. Joseph. Senator, if I may get back to you on that, I 
will give you the specifics.
    The Chairman. Very good, if you would do so for the record, 
we would appreciate it.
    Mr. Joseph. I will do so.

[Editor's note.--At the time this hearing went to press the 
State Department had failed to provide the requested 
information.]

    The Chairman. Now, third, in conjunction with this 
question, what programs are used to meet requirements of 
chapter 9, and what percentage of the funds expended by these 
programs go to detection and interdiction assistance, as 
opposed to export controls and other efforts?
    Mr. Joseph. Senator, as I mentioned in my opening 
statement, we do have a significant effort that is reflected in 
the Export Control and Related Border Security Assistance. This 
is a program that involves efforts with 50 countries or more. 
It is a program that contributes to detection and interdiction 
in a number of ways, really, across the spectrum from trying to 
work with others, and we have done so successfully in many 
cases to build the legal authorities in those countries, to 
have effective export controls and to have effective customs 
capabilities to training and providing equipment. It is a 
program that has had a great impact, I would say, on the 
overall objective of WMD detection and interdiction.
    The Chairman. Well, with regard to this third question, 
will you review that, too, for the record, because I have asked 
what percentage of funds expended by the programs go to 
interdiction and detection as opposed to export controls and 
other efforts.
    Mr. Joseph. I will do that, sir.
    The Chairman. This may be difficult to respond to, but----
    Mr. Joseph. I'll get you this----
    The Chairman. For the record, that would be helpful.
    Mr. Joseph [continuing]. Precise percentage; yes, sir.

[Editor's note.--At the time this hearing went to press the 
State Department had failed to provide the requested 
information.]

    The Chairman. Now, in another area, listening close to your 
testimony, if I understand it, you believe the provisions of 
our bill, S. 1949, requiring increased coordination, are not 
needed given the recent reorganization of the arms control and 
nonproliferation bureaus into a single international security, 
a nonproliferation bureau. Is that right? Is my understanding 
correct?
    Mr. Joseph. Sir, I think the key contribution of the 
reorganization is to put better focus on the problem, the 
problem particularly related to detection and interdiction and 
dealing with the threat of proliferation more broadly. In terms 
of coordination, I think that we do require greater 
coordination, better coordination, and that we can do better in 
that area, both within the State Department, but also within 
the interagency and with other countries. I think that is the 
key to success.
    The Chairman. Now, when Senator Obama and I were in 
Donestk, Ukraine, we were struck by what we would call numerous 
moving parts within the administration on these issues. And 
with regard to that, I have four related questions. First of 
all, would you please describe how many and which offices were 
involved in conventional weapons dismantlement both before and 
after the reorganization of your bureaus? Now, let me ask all 
four of these questions because some may require followup. What 
mechanisms have you put in place to insure that coordination is 
improved? What coordination mechanisms are in place to insure 
there are no overlaps or gaps in the assistance. More 
specifically, How do you ensure the United States is not paying 
for the same item through the Export Control and Border 
Security Program, our voluntary contributions to the IAEA fund 
that assists countries in similar areas or other U.S. programs 
at the Department of Defense or Customs? And finally, as you 
have reorganized the coordination of these efforts, have you 
found any evidence of mismanagement or problems involving 
wasteful overlaps? I'd be pleased by your response to any of 
this generally, but, also, please provide specific responses 
for the record.
    Mr. Joseph. I will provide specific responses for the 
record, Senator, but let me say that I am not aware, going to 
your last question first, of any reports of mismanagement or 
wasteful overlap. But again, I will get you a, you know, a 
complete response for the record. In terms of how many offices 
are involved in conventional weapons elimination or 
dismantlement, well, the key office, of course, is the office 
that I described in my testimony, the office within the 
Political Military Bureau dealing with weapons removal and 
abatement. This was our attempt to bring together, into one 
office, the disparate functions that were separated prior to 
the creation of that office in 2003 relating to conventional 
weapons removal and demining, everything from demining to the 
small arms/light weapons initiatives and the MANPAD initiatives 
that we have undertaken. There are other offices that are 
involved. At times, the office dealing with the 
nonproliferation and disarmament fund has been involved because 
they have provided resources for specific projects. And 
naturally, there's a large coordination effort within the State 
Department involving many different offices, but the principle 
focus of the work is done within the PM, the PM Bureau. Your 
second question dealt with how has coordination improved. I 
think it has been improved through the reorganization and 
particularly, the creation of this particular office dealing 
specifically with conventional weapons initiatives. And as to 
EXBS and the voluntary IAEA contributions and the question as 
to whether we're paying twice for the same horse, I'll get back 
to you. Again, I am not aware of any cases in that regard.

[Editor's note.--At the time this hearing went to press the 
State Department had failed to provide the requested 
information.]

    The Chairman. I thank you. Now, Secretary Joseph, you've 
expressed concern that specific funding allocations or earmarks 
for these programs would reduce your flexibility to address the 
full range of threat initiatives for which you're responsible. 
Let me just ask, How much has the Department requested for 
conventional weapons dismantlement in fiscal year 2007? How is 
that number determined? To what extent is the request for the 
fiscal year 2007 based on a threat risk assessment of known 
conventional weapons and stockpiles? In your testimony, you 
indicate some stockpiles of conventional weapons require urgent 
disposal. Under current plans, how long will it take to 
eliminate those threats? And then, if there was additional 
funding, would you be able to accomplish your goals faster?
    Mr. Joseph. Senator, let me say that I, of course, support 
the President's budget as has been submitted. The request for 
small arms/light weapons destruction in the NADAR account for 
fiscal year 2007 is approximately $8.6 million. That is not the 
only account from which we could support the conventional 
elimination initiatives including the elimination of at-risk 
MANPADS. To the question of whether or not we could spend 
additional money, sure, we could spent additional money, but it 
would be important that that money not be taken out of other 
accounts that reflect other priorities.
    The Chairman. Well, I appreciate your loyal response. Let 
me just say, anecdotally, that as we met yesterday with the 
King of Jordan, he expressed a number of security issues which 
are vital in the war against terrorism. You are aware of many 
of these. It was apparent that the administration budget did 
not contemplate quite all of what he had in mind. He took this 
up directly with the President. The President indicated what 
the budget is of the administration, but also indicated to the 
King that if, in fact, he had a more favorable congressional 
response, conceivably, the Congress might work as well. I raise 
these questions with that thought in mind, but I want your 
assessment, quite honestly, as to the risk that we have. In 
other words, my own view with regard to the weapons of mass 
destruction as well as these extremely important so-called 
conventional weapons is that if there is an urgent threat, we 
must meet it, and this is not simply a bookkeeping tabulation. 
You share that view, I know, but I need, in addition to your 
loyal response to the administration's budgets, your assessment 
as a professional of what we need to do, really, in this year 
that we're looking at. I'd like to call now upon my 
distinguished colleague, Senator Biden.
    Senator Biden. Thank you very much. Mr. Secretary, what 
other priorities are equal to or greater than this one? You 
said there are other priorities that are greater. Can you list 
some for me?
    Mr. Joseph. Senator, I personally put the highest priority 
on combating the proliferation of weapons of mass destruction. 
I have been working on that problem, as you know, for a good 
number of years.
    Senator Biden. We don't disagree there. Any other priority 
that's higher than this that you could list?
    Mr. Joseph. I don't think there's another national security 
priority higher than stopping proliferation, and specifically, 
meeting the challenge of nuclear terrorism.
    Senator Biden. No; I agree with that. I think we all agree 
the highest priority is the challenge of weapons of mass 
destruction. Now, you said there are other priorities that are 
equal to or greater than the priority set out in this 
legislation, and my dad used to say show me a budget, and I'll 
tell you what you believe. You know, you can say--I remember we 
used to have these discussions--we value the women on our 
staffs. I said, well, show me the budget. How much do you value 
them? Do you have them at the top of the list, as many women as 
men making the same amount of money, if you really value them? 
If someone tells me he values taking care of the sick and the 
elderly, well, show me what the budget says. Now, we talk about 
proliferation, and we all have our anecdotal examples. Senator 
Lugar and I were in Iraq a couple times together right after 
the war. I remember walking out in the street, and we were--
remember Dick, they had this deal wherever they were paying for 
MANPADS, the surface-to-air missiles that could be held by an 
individual, and we're paying $500 bucks, I guess, for the 
retrieval because there were 800,000 tons of weapons left 
unguarded at weapons dumps that we literally did not guard, 
that were looted extensively. And I was told a story by a 
captain; I didn't actually see it. I think it was a captain who 
said, there's a guy that crossed the street on the corner near 
him--and we were able to walk around town in those days; we 
were outside the Green Zone; can't do that now--and there was 
one of these shoulder-launched missiles leaning up against a 
chain-linked fence that a guy just could not come up with $500 
bucks to pay this young Iraqi who came with him. He said, ``Do 
you have any more?'' I didn't see this now, I'm told this. ``Do 
you have any more?'' And the Iraqi said, ``I thought I could 
only bring in one.'' He said, ``No, you can bring as many as 
you have.'' And the Iraqi came back with a beat-up pickup 
truck, literally, I'm told, completely filled with these 
missiles. He could not fit any more in the pickup truck. So, 
there are thousands of these things out there, hundreds and 
hundreds at least. I suspect thousands. And so, I am just 
wondering what is a higher priority. Eight million bucks in 
this budget to deal with conventional weapons like this. Eight 
million dollars doesn't even get a blip on the screen. You all 
have underfunded Nunn-Lugar for 4 or 5 years on balance. We're 
doing a little better now. So, I'm wondering what are the other 
things in the budget. It was referenced by Senator Obama that 
we're putting another billion bucks into it. And we all agree 
we should be doing more in foreign aid, but--you know, I've 
already put you in too much of a spot--but, I do not get it how 
there could be anything with a higher priority. I promise you, 
if a conventional airliner comes down in this United States due 
to one of these weapons, whoa, you're going to find this is the 
highest priority in the minds of every American citizen.
    So I just think the priorities are a little misplaced. In 
recent years, I have been pressing you, with the help of the 
chairman, for a requirement that before we sell or give arms or 
light weapons to a country, we ask what the State Department 
Office that deals with these weapons, your Office, thinks about 
the probable sale. And the reason for that is to give your 
Office notice, a chance to offer assistance to the recipient 
country, either on how they're going to secure these weapons or 
what they're going to do with the old weapons they are 
retiring. Is this something you guys could support? We'll send 
you a question--I do not want to catch you off guard. We had it 
in our legislation, and we have not gotten much of a response.
    But the bottom line is, the Defense Department decides to 
sell some of these weapons of the kind we're talking about. 
Sometimes it replaces older versions of similar weapons. What 
does the recipient country do with those older weapons, and 
what do they have in place to secure the weapons we're selling 
them? It seems to me we should know that, and you guys are the 
ones who, I think, should be looking at that. Do you have any 
objection to that legislation, that requirement?
    Mr. Joseph. Senator, let me say that I will actively look 
at what you have proposed----
    Senator Biden. Good.
    Mr. Joseph [continuing]. And provide you with a response. I 
would like to have an opportunity to respond to the question of 
the budget, though----
    Senator Biden. Sure.
    Mr. Joseph [continuing]. Because I think that is a very 
important point.
    Senator Biden. I'd be happy to have you do that. I only got 
10 minutes, and I got two questions, but go ahead.
    Mr. Joseph. Senator, I----
    Senator Biden. Tell you what, let me ask you the two other 
questions so I get them in, and then you can respond to all of 
this, because, you know, there's this rumor that I talk more 
than others, and so I want to be fastidious about the 10-minute 
rule here. So, I'm going to get in my questions, then you all 
can talk as long as you want. I have two other questions if you 
will mark that one down and respond to it, the budget. Another 
one that I'm going to submit for the record is an article 
you've already seen, from February 7, ``State Department Sees 
Exodus of Weapons Experts,'' by Warren Strobel, a first-rate 
well-known reporter here, with Knight-Ridder. I have questions 
off of that which I'll submit for the record and I'd like you 
to be able to respond to, but I want to move quickly before my 
time is up, also, to Iran. And as I said, I give you guys 
credit. I think the administration is on the right course, 
keeping the international community together. You've made 
progress. You've stuck with the Europeans. You put them in a 
position where they're going to have to--you know, I love my 
European friends; they always want to do things by consensus, 
but sometimes, when the rules are broken, they're not so 
willing to enforce. So, you've kind of been backing them into a 
position where I think they will have more--I shouldn't say it 
this way, but more, how can I say it, I was going to say spine, 
but I wouldn't, won't say that--more conviction about following 
up.
    But here's the deal. We hear all the time that, obviously, 
sanctions against Iraq by China, which is thirsting for energy, 
Russia, that has been reluctant to take on Iran, and Europe 
which desperately needs energy, at the end of the day, when you 
go to the United Nations and seek sanctions, assuming we get 
them, they'll probably not be real sanctions. But I want to 
know, and you don't have to give me the answer now because it 
may be classified: Have you guys analyzed the impact that oil 
sanctions would have on Iran, not the impact it would have on 
the consuming world, but on Iran? Because it's my understanding 
that they are net importers of refined fuels, gasoline for 
example, and that Iran is incredibly dependent on the moneys 
coming from crude oil, thanks to the high market prices right 
now. And I, for one, think this is the place we should have the 
nerve to pull the trigger on Iran, if it gets there.
    But my question is, has there been a hard analysis done--
and if it was classified, fine, I'd like to ask for the 
committee to have access to it in an appropriate time and 
place--but have you done a hard analysis on the impact 
sanctions would have on Iran, if, in fact, we found the nerve, 
Europe and China not vetoing, but in supporting sanctions for 
Iran's failure to cease and desist from their nuclear 
ambitions? My time's up, and all those questions are yours.
    Mr. Joseph. Senator, thank you. I'll try to be very brief. 
In terms of the budget, I think the budget that this 
administration has proposed does reflect our priorities, 
particularly in the area of stopping or combating weapons of 
mass destruction. We have a record that goes back a good number 
of years now as an administration. To meet the requirements of 
the comprehensive strategy that we have put forth for dealing 
with this preeminent threat to our Nation, one element of that 
strategy is prevention, and this administration has a very 
proud record in terms of its budget requests for 
nonproliferation assistance programs, not just CTR, but, of 
course, the DOE programs and the State programs that contribute 
to that effort. We also, in that very same context, have worked 
with others because we believe that this is an international 
responsibility. This is not a responsibility solely of the 
American taxpayer. And in 2002, the President achieved, what I 
think, is a major success in terms of the establishment of the 
G-8 Global Partnership to stop the spread of weapons and 
materials of mass destruction, which has resulted in billions 
of dollars. I believe it's about $7 billion of commitments for 
this effort. I mean, that's real money.
    Senator Biden. How much has been expended?
    Mr. Joseph. I would have to give you the specific figures 
on what's been expended, but I think the fact that we have 
commitments in this regard of $7 billion is very significant.
    We've also, of course, in terms of the second element of 
the strategy, the protective element, spent a great deal of 
money, not just in efforts that we've talked about today like 
PSI in terms of detection and interdiction, but building our 
counterproliferation capabilities. Prevention may not always 
work. We need to be in a position to protect ourselves, and we 
are expending tremendous resources in that regard, everything 
from improving the ability of our troops in the field to 
operate in a chemical or biological environment to missile 
defense.
    And third, in terms of the final element of the response of 
the strategy, we are developing our response capabilities. And 
Congress has appropriated billions of dollars just in the 
biological area alone. We are moving forward with a very 
comprehensive strategy to deal with this very dangerous and 
complex threat, and we are spending enormous amounts of money 
in a constrained environment on dealing with the threat, but 
we're doing it comprehensively. Now, my sense, Senator, is that 
MANPADS represent a tremendous threat. And you are exactly 
right in your characterization of this, but if I had to compare 
the priority of MANPADS, we've got to deal with it. There's no 
question about it. But the consequences of, you know, a 
coordinated attack using MANPADS would be very significant. 
Some could say that it would be catastrophic, but I think the 
use of even a single nuclear weapon against an American city 
would be greater, and I think we've got to place our priorities 
in that framework.
    Senator Biden. That's what you call a straw man. No one's 
suggesting that you in any way do that. As a matter of fact, I 
don't think you spend enough there. Your whole budget's about 
$450 million, and you're going to spend on missile defense this 
year, which I think is a cockamamie priority, a whole lot more, 
but that's above your paygrade and mine. But how about the 
issue of Iran?
    Mr. Joseph. Senator, as we move forward, and thank you for 
your words, as we move forward, we are analyzing all aspects of 
next steps that we might be able to take. I would not want to, 
in this context, get into the specifics of what we're looking 
at with regard to options for sanctions, but what you've said 
is, you know, it is something that we know in terms of certain 
vulnerabilities that are out there.
    Senator Biden. Is there any place in the administration we 
can go in a classified way and get a sense of whether or not 
there's been a hard analysis done of what an oil embargo would 
do in terms of impact upon Iran? That's my question.
    Mr. Joseph. Why don't I talk to you right after this?
    Senator Biden. OK, great, thank you.
    The Chairman. Well, thank you very much, Senator Biden. I 
would just underline Senator Biden's query. I understand the 
confidentiality, but it is important for us to know not simply 
that there's been thinking by the administration on that 
specific response, but perhaps on a whole gamut of responses so 
that in the event that at some point, heaven forbid, we are 
called upon to take action, in this committee or in this body, 
we will have been well informed and will have been thoughtful 
throughout the process. I'd like to call now on Senator Obama.
    Senator Obama. Thank you, Mr. Chairman. Secretary Joseph, 
thank you very much for your testimony so far. I just want to 
start by making sure we're all on the same page here.
    My understanding in your interchange with Ranking Member 
Biden is that you seem to be implying, at least, that we had an 
either/or choice between dealing with weapons of mass 
destruction and dealing with threats like MANPADS. And I just 
want to make absolutely clear for the record here that the 
question I understood Ranking Member Biden to be making was 
setting aside the priority, the appropriate priority, of 
weapons of mass destruction and the nonproliferation in that 
area in which all of us would like to see probably more 
resources than the administration is currently devoting. You 
still have a pretty sizable budget remaining, and the question 
then becomes what are the other priorities aside from weapons 
of mass destruction nonproliferation, that you think might be 
higher than assuring that shoulder-to-air missiles don't get 
into the hands of terrorists that can shoot down commercial 
flights, either here in the United States or abroad.
    Is there a priority higher than that from your perspective? 
And if it is, I think we want to know what that is because I'm 
not sure, in my mind, that there is another priority other than 
preventing nuclear weapons or biological and chemical weapons. 
So, I never felt like I got a clear answer on that question, 
and I'm wondering if you could address that right now.
    Mr. Joseph. Senator, I'll give you a very clear answer. 
Other than stopping weapons of mass destruction, I personally 
do not think that there is, in the area that I work, a higher 
priority----
    Senator Obama. Right, OK.
    Mr. Joseph [continuing]. Than keeping MANPADS out of the 
hands of the wrong people.
    Senator Obama. Good, so I actually think we're in agreement 
there. So, then the question becomes, I guess, Is there room 
for improvement, and are there additional resources that the 
department could use in order to make this program more 
effective? It does not detract from the effectiveness of what 
you've already been doing. And I think we compliment the 
efforts that have been made. But as Chairman Lugar indicated, 
our observations, at least, have been that the problem of 
proliferation in this area is considerable, partly because 
there are a lot more MANPADS out there than there are, you 
know, weapons grade nuclear material, and so the challenges are 
different than the ones that you face. There may be numerous 
MANPADS floating around somewhere. We may not have tracked them 
sufficiently. And so the question, then, I guess is, Where are 
the areas of improvement that can be made, either 
organizationally or budgetary that would be significant? And 
I'll--what I'll do is, I'll just read one quote that I have 
from an internal State Department document that was on this 
issue that came out last year. It says, and I'm quoting in 
part, ``Globally, there is a requirement to destroy large 
excess stockpiles of conventional munitions. However, the tools 
and resources available to the Department are insufficient to 
address this requirement.''
    Now, you know, this is a State Department response, to a 
precursor to the legislation that we've introduced. This prior 
legislation, introduced back in 2004, was called Conventional 
Arms Threat Reduction Act of 2004, and I am quoting from the 
talking points from the Department concerning this legislation. 
So, it just seems to me that we can do better. You've just 
acknowledged this is the second highest priority after making 
sure that weapons of mass destruction are secure. The 
legislation here attempts to provide you additional authority 
and resources in order to improve how we're dealing with this 
critical issues. If these are not the right tools please tell 
us what is the way to make this system work better--unless, of 
course, you think that it's working as good as it can.
    Mr. Joseph. Senator, thank you. Let me just say that we can 
always do better, and we are striving to do better. And I do 
believe, as I said, that MANPADS is a threat that we need to 
treat with the highest priority. And in the last few years, the 
State Department has focused much of its budget in the Small 
Arms/Light Weapons Account on MANPADS as well as taking the 
lead in working with other countries to address this threat, 
such as in Ukraine. We've worked in 17 countries, literally, 
around the world on this, and no country that has sought 
MANPADS assistance has been refused. We are trying to meet this 
priority threat, and we are making a determined effort.
    Senator Obama. Oh, I have no doubt that, given the limited 
resources you have and the fact that you've got a lot on your 
plate right now, that you're doing the best that you feel that 
you can. Mr. Secretary, I think you've got a big job, which is 
why we're interested in giving you potentially more authority 
and resources to do your job. And as Senator----
    Senator Biden. We want to throw you in the briar patch.
    Senator Obama. As Chairman Lugar indicated, you know, we 
appreciate your loyalty to the President's budget. You know, we 
are not required to, toe the line in the same way that you are, 
so we in Congress are going to push on this.
    Let me focus on a couple points before my time is out. You 
know, right now, the budget for small arms and light weapons, 
including MANPADS is $8.6 million--million dollars. I mean, 
that's decimal dust in our budget, given how important this 
issue is to our security. Now, this is taxpayer money, and you 
start in Washington, you start talking in terms of millions, 
and people lose perspective. Millions is real money, but $8.6 
million in our budget is not commensurate with the threat posed 
by these weapons. You mention that anybody who asks us for 
help, you're happy to provide it, but there are a whole bunch 
of countries out there who may not be asking us for help. 
That's part of the problem.
    When Senator Lugar is wandering up in the hillside 
somewhere and just because he happens to be there, they say, 
Oh, by the way, here are 47 MANPADS in a crate, you know, we 
don't want to leave securing these issues to, you know, these 
random encounters or some sort of conscience on the part of 
some other foreign power somewhere. I mean, we want to make 
sure that we're doing everything we can.
    And so, can you just tell me how could we be more proactive 
as opposed to, what it sounds to me, maybe somewhat passive or, 
at least, not as systematic as we could be on this program?
    Mr. Joseph. Senator, again, if we were to devote more 
resources to the destruction of MANPADS, I think we could 
achieve more, but I would very much recommend not taking those 
resources from other accounts. If you look----
    Senator Obama. Other accounts, I just want to be clear, 
other accounts of yours in the area of nuclear war----
    Mr. Joseph. Well, I can't speak----
    Senator Obama [continuing]. Weapons of mass destruction 
proliferation. Am I correct? I mean, that's your point. You 
don't want to shift, I just want to make sure I'm getting your 
point clear here, you don't want to shift money out of the 
vital work that's being done in the nonproliferation of weapons 
of mass destruction into this area. Is that correct?
    Mr. Joseph. That's correct, Senator.
    Senator Obama. OK.
    Mr. Joseph. Obviously, I can't speak for others, but in 
terms of the budget accounts that are appropriate in terms of, 
you know, the tasks that I am responsible for, for example, in 
humanitarian demining, we have a relatively, you know, large 
effort in that context.
    Senator Obama. That's important stuff. I don't want----
    Mr. Joseph. It's very important, Senator.
    Senator Obama. I don't want a bunch of kids maimed as a 
consequence of----
    Mr. Joseph. But, Senator, these are the types of choices 
that, you know, that are reflected in our budget.
    Senator Obama. I understand, and I don't mean to interrupt 
you. I guess my point is simply that I don't necessarily want 
to--I don't feel constrained in a way that you necessarily are 
in your institutional role by thinking just within your budget. 
I'm not interested in robbing Peter to pay Paul necessarily 
within your budget. We've got some more flexibility. I suspect 
there's a whole bunch of money being spent on less important 
priorities outside of the issues for which you are responsible. 
You don't have to comment on that. That's my comment that, you 
know, we could quadruple the budget devoted to MANPADS, and I 
assure you there are some programs in this federal budget could 
be cut to fund this increase. So, again, you don't need to 
comment on that. I'm out of time on this round. I'll see if I 
can come back on some points.
    Mr. Joseph. Could I just make one suggestion?
    Senator Obama. Yes, sir.
    Mr. Joseph. It may be very useful to have a classified 
briefing given to the committee on MANPADS because there are a 
number of things that I think the committee could learn from if 
we were able to do that.
    The Chairman. Well, that's a good idea, and perhaps, to the 
extent that it's possible, the discussion may be made more 
candidly of the priorities and the problems that we have so 
that we could understand the criteria of the budget making at 
this point and maybe be better informed as we verge into this 
and try to rearrange some of the cards in the deck.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. This must be 
kind of bittersweet for you. Bitter in that it goes against the 
grain of the administration's budget, but sweet as Senator 
Biden said, Oh, please don't throw me in that briar patch. But 
you see where we're coming from.
    I'd like for you to address the question of how the United 
States should express our disgust at Iran's position toward 
Israel, but do so in a way that does not preclude a diplomatic 
resolution to the crisis?
    Mr. Joseph. Senator, I have spoken publicly on the issue of 
Iran and the threat that is posed by a potential nuclear-armed 
Iran, and one of the key threats, of course, in that context is 
that Iran, a nuclear-armed Iran, with this leadership, does 
represent an existential threat to the State of Israel. When 
the President of Iran says that he would like to wipe Israel 
off the face of the map and--oh, by the way, he said the same 
for the United States, but wipe Israel off the face of the map 
and denies the historical reality of the Holocaust and makes 
other truly abhorrent statements, I think we ought to make very 
clear not only that we find that repugnant, but that has policy 
significance. That that hardens our view that we and the entire 
international community must band together and prevent this 
regime from acquiring nuclear weapons. And quite frankly, I 
think that the President's comments, the President of Iran's 
comments, about Israel have hardened the opposition, have 
resulted in other countries moving from the abstain column, if 
you will, at the IAEA Board of Governors to voting with us 
because I think a number of countries believe that Ahmadinejad 
does believe what he says in this context.
    Senator Bill Nelson. So, you think we can still move toward 
a diplomatic solution given the extremist positions that have 
been taken?
    Mr. Joseph. Senator, I think we need to do everything we 
can to give the highest prospect for diplomacy working, and 
that's what we have been trying to do. We've been trying to do 
that in the IAEA context. We will now try to do that in the 
Security Council context, but this is very hard. As you know, 
Iran has tremendous resources. It has a whole number of tools 
that it also can play, but a nuclear-armed Iran is something 
that is unacceptable to us.
    Senator Bill Nelson. Well, I'm getting around to the 
question of all options on the table, but tell me how long you 
think this situation can go on.
    Mr. Joseph. I can't give you a good sense, Senator, of the 
time. You know, as well as I, the estimate of the Intelligence 
Community in terms of 5 to 10 years, but I don't know what 
level of confidence is associated with that assessment or how 
many wildcards, for example, foreign assistance, that may be 
involved in that assessment.
    We know that Iran drew on the assistance of the A.Q. Khan 
network in the past, and it may find shortcuts in the future. 
We do know that it is determined. It appears to be absolutely 
determined to move from conversion, to enrichment, to 
weaponization. I don't know--I don't have a good sense of the 
time. But my sense is that we can't wait 10 years and 17 
resolutions, you know, before we address the full aspect of the 
threat.
    Senator Bill Nelson. And what do we do about our friends, 
the Russians, who now have said they're willing to take and 
enrich Iran's uranium? That plays right into Iran's hands.
    Mr. Joseph. Senator, the Russians put forth their ideas, 
their proposal, in the context of the EU3 negotiations, and the 
EU3 negotiations are based upon the Paris Accord from November 
2004 and would not allow Iran to conduct enrichment-related 
activities.
    The Russian proposal would not permit Iran to have access 
to the technologies that are associated with enrichment and 
would not permit Iran to enrich uranium in Iran.
    Senator Bill Nelson. Well, they bought some time in going 
through that exercise. Has the U.S. Government made clear that 
all options are on the table?
    Mr. Joseph. Yes, sir, the President has said that. We are 
working diplomacy as hard as we can. Everybody wants diplomacy 
to provide the solution to this threat. We are also working to 
deny Iran access to sensitive materials and technologies 
through the Proliferation Security Initiative, through all of 
the other counterproliferation and nonproliferation programs 
and capabilities that we have built.
    Senator Bill Nelson. OK, and is it the position of the 
administration that they're OK with Iran possessing nuclear 
power technology?
    Mr. Joseph. We, Senator, supported the EU3 proposal. Part 
of the proposal that was made last August would have allowed 
peaceful nuclear power reactors in Iran. It would not allow 
conversion or enrichment, and it was particularly 
straightforward on not permitting enrichment which, of course, 
is key to developing the fissile material for the weapon.
    Senator Bill Nelson. So the administration's position would 
allow the Iranians to possess that nuclear power technology?
    Mr. Joseph. It would allow, you know, the current Bushier 
reactor that is being built by the Russians. But under the 
conditions that have been made, you know, the arrangement that 
the Russians have made for providing all the fuel and taking 
back all of the fuel, that's a very important nonproliferation 
measure. We supported that. We encouraged that. And, of course, 
we have drawn the line with regard to Iran moving beyond that.
    Senator Bill Nelson. And that's the position of the 
administration even though Iran has cheated at every 
opportunity?
    Mr. Joseph. That is the position that we have taken with 
regard to the EU3 negotiations. Things have moved. I mean, the 
Iranians now have moved to conversion in August when the 
Europeans made this very generous proposal in August, and the 
Iranians responded by moving to full-scale conversion.
    We, then, had a resolution of noncompliance, which I think 
was a significant diplomatic success for the President and the 
Secretary in September. For the first time, we found Iran in 
formal noncompliance, which requires the report going to the 
Security Council. We, then, had Iran responding to that by its 
activities, I believe it was the 9th or 10th of January, in 
which they removed seals and said they were moving forward with 
what they called innocent research and development on 
enrichment. Innocent research and development which one Iranian 
was reported to have said takes place at most major 
universities, which it wasn't the case from my universities or 
any one that I know. I mean, clearly this is the next step to 
enrichment. This is what we're trying to stop. And I think we 
had, you know, some success at the IAEA, but this is going to 
be a very difficult diplomatic effort stretching over many 
months.
    Senator Bill Nelson. There's an awful lot that hangs in the 
balance. And at every step we've seen, it appears Iran is 
absolutely intent on moving toward the acquisition of nuclear 
weapons. You can approach this with carrots. You can approach 
it with sticks. Why was it the position of the U.S. Government 
under your predecessor not to use both?
    Mr. Joseph. Well, I couldn't speak for my predecessor, but 
we have, you know, supported diplomatic efforts that would 
provide real benefits to the Iranian people. I mentioned civil 
nuclear energy, but also much broader than that. But this is 
not about nuclear energy, this is about a state, a government, 
that is determined to acquire a nuclear weapon's capability. 
That's how I see it.
    Senator Bill Nelson. Well, on that, we certainly agree, and 
there's a lot at stake. We have to be successful.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Obama. Mr. Chairman.
    The Chairman. Yes, Senator Obama.
    Senator Obama. I apologize. I am going to have to leave, 
and I wanted to leave two--present some additional questions to 
the Secretary that you can respond to in writing and just if 
you don't mind.
    The Chairman. Would you like to do so right at this time, 
and then I'll ask my questions after you've concluded?
    Senator Obama. Well, rather than take additional time and 
delay you, I'll just present them in writing. I'd like a 
response. My hope is, just as a closing statement, you know, I 
think we have a very high regard for the work that your Office 
is doing, and we appreciate the priorities that you have set 
with respect to weapons of mass destruction.
    I just want to reiterate that this has to be the second 
priority, is dealing with MANPADS and other conventional 
weapons. I mean, we didn't talk about when Senator Lugar and I 
were in Ukraine just seeing mountains and mountains and 
mountains of conventional weapons, asking the manager there how 
long did he expect, at the rate they were going, to dismantle 
these, you know, mortars, and he said, what, 60 years. These 
are, you know, as Chairman Lugar stated, being used to make 
IEDs in Iraq and now Afghanistan, and who knows where next. And 
so, we've got to deal with this, and I think that we can do 
better.
    My hope is that maybe outside the context of this hearing 
we can have a more constructive conversation about how we can 
fine tune this piece of legislation to give you the additional 
tools that you need, so thank you very much, Mr. Chairman.
    Senator Bill Nelson. Mr. Chairman.
    The Chairman. Senator Nelson.
    Senator Bill Nelson. Mr. Chairman, I would just add, we 
hope and pray for the success of your work. But these questions 
need to be answered, and thank you, Mr. Chairman, for providing 
this forum.
    The Chairman. Thank you for attending the hearing.
    Secretary Joseph, just to complete the record, with my 
questioning.
    In the past, the Secretary of State, Condoleezza Rice, and 
others, have described the nonproliferation and disarmament 
fund, which I'll refer to after as the NDF, as designed to 
respond to urgent unanticipated nonproliferation events of 
immediate concern to the United States. And for these reasons, 
I, and others, have been strong supporters of that program. 
However, it appears that a disturbing trend may be developing. 
Instead of responding to emergencies or opportunities, such as 
Libya, in which you have been heavily involved, NDF funds would 
appear to be identified up front to fill funding shortfalls in 
other areas. Is this an indication of a larger funding problem 
in the disarmament nonproliferation accounts? What steps can be 
taken to ensuring that NDF is not crippled by taking up the 
slack for funding shortfalls in other program areas?
    Mr. Joseph. Senator, thank you. NDF has been used for a 
wide number of purposes, including to support conventional 
weapons destruction and detection and interdiction on the WMD 
side. We have recently moved the money that was coming from the 
NDF for EXBS, out of that, out of that account. We are trying 
to retain this fund for the purpose that it was established. 
Because we do find that it provides great flexibility. I 
believe it's no year money, and it's not withstanding, it gives 
us exactly the type of flexibility that we need. And we just 
need to be very careful in ensuring that it's used for the 
proper purpose.
    The Chairman. Well, that's for certain. I raise the 
question because once again we have a fund here and we've all 
agreed on the importance of it. Obviously, it's used from time 
to time for other purposes, and, therefore, priorities may have 
been established ad hoc that would determine that.
    Your testimony outlines concerns about funding choices, and 
facing these funding choices between projects, addressing 
equally important threats and your need for greater 
flexibility.
    As my colleagues and I have suggested, isn't this an 
indication that the funding levels are insufficient? In our 
opinion, all of these dismantlement, nonproliferation, and 
counterproliferation efforts are critical to the U.S. security. 
And if you're concerned about important projects being 
sidelined because of earmarks, isn't the answer an increase in 
funding for the nonproliferation accounts?
    I would hope that the answer is, ``Yes''; although, as you 
pointed out, the administration has come to a conclusion as to 
what the current request would be. It could be that, perhaps, 
Senator Obama and I, in addition to offering this legislation, 
should craft an amendment to the appropriations bill to ensure 
that all these programs are fully funded, and that harmful 
choices are avoided.
    My hope would be that we can work with the administration 
on this, as opposed to having a competition as to who finds 
more threats and more difficulties. But I mention that because 
at least one of our options as Members of Congress is to offer 
amendments to appropriation bills.
    The President ultimately does not have to accept those. But 
we think that there is genuine bipartisan support for what 
we're talking about here today. And I mention that just 
historically, because one of the good things about longevity in 
the Congress, is that you outlast administrations. Three, four, 
five, six, as the case may be. Secretaries come and go. Some 
are more sympathetic to programs such as the ones we're talking 
about.
    My hope is that your administration would be very 
sympathetic now, in this particular period. In this 
administration. Not in the next. But providence willing, the 
voters of Indiana willing, I'll be around for the next one. And 
I'm trying to indicate tactfully my persistence as you proceed 
with the Nunn-Lugar efforts over the last 15 years.
    So this area won't go away. This is why we really 
appreciate your taking time to testify today, so that we could 
have direct conversation, publically, about these issues which 
are important. Not only to Senator Obama and myself, but I 
think to others who have spoken. And let me just offer two more 
thoughts in light of the testimony you've given.
    You mentioned the European contributions and the idea of 
the G-8 contributing, matching what amounts to about a billion 
dollars of cooperative reduction funds. Plus the Energy 
Department, and State, and so forth. It was a wonderful idea. 
Senator Biden may not have pressed the issue, but he inquired, 
What have the European contributions been? We've had hearings 
on this issue before. Clearly there are problems. Some of the 
problems are posed by Russia, by the Duma, or by their 
administrations which have not given umbrella coverage in terms 
of liability to many European contractors in the same measure 
that we have requested and obtained that with our own initial 
Nunn-Lugar funds and to some extent with subsequent efforts.
    Although there were good faith pledges to move as a 
practical matter, lacking coverage, many of our colleagues in 
the G-8 have not been able to move very rapidly or 
successfully. Others have never quite determined their 
priorities. Sometimes they have established priorities that 
were important to them in terms of their national interest and 
which do contribute to the whole situation. For example, there 
has been some greater interest in nuclear submarines, or in the 
tactical missile problem, which has not really been tackled in 
terms of international negotiation.
    I mention this because clearly one of the things that 
Senator Obama and I found when we were in this Donetsk area, 
and visiting people in Ukraine, was that there had been, in a 
small way, European interest in this conventional arms 
destruction process and some appropriation of moneys by a few 
countries, including modest amounts by ourselves.
    That, I think, is worth following through on, because very 
clearly the European nations were interested in this issue. All 
of those stocks are much closer to them, geographically, than 
they are to us. In terms of proliferation and the actual 
carting off of material, it is in a practical matter much more 
likely to occur in the European continental context, and, 
therefore, an unusual concern. I'm not certain to what extent 
this has ever entered the agenda, not only of the G-8, or NATO, 
or various other international organizations, but I would hope 
that it would. I take the occasion of this hearing this morning 
simply to outline that specifically.
    And finally, certainly each administration has to set 
priorities on this issue, but one of the discussions of 
cooperative threat reduction has always been the value of 
destruction or containment or securing weapons, conventional or 
nuclear, at the source.
    To the extent that there can be confinement there, and 
programs of destruction, then the problems of response are not 
eliminated. To the extent that prevention has taken care of the 
problem, or secured it, that is a much less expensive method, 
by and large. This is sort of a second situation, as you know. 
You've given these lectures more often than I have. If you 
can't confine the problem at the source, at least try to 
confine it within the boundaries of a country. We must ensure 
that there be international controls so that things do not 
cross boundaries.
    Wth the PSI program, you have another stopper. Material 
went outside the boundaries, went to sea, but nevertheless you 
stopped it before it got to somebody else's boundary.
    Ultimately, with the missile defense or various other 
programs, with our local officials, we try to think through the 
reaction to chemical or biological attack. That is vital. The 
problems of that kind of response, horrendous as they are to 
contemplate, are important.
    Our legislation here, and the furtherance of cooperative 
threat reduction, seems to me to be the least expensive method 
at the source. Right there on that pile in Donetsk, whatever it 
is, is destroyed. Perhaps that is the best solution, given a 
willing partner in Ukraine. Those officials took us to that 
part of the country to display this.
    I conclude by saying, as others have already, that we saw a 
mountain of detritus from old wars. Plural. All covering this 
acreage, much with weeds and trees growing around it and 
through it. I don't know what is to happen in the world, how we 
really deal with these problems. We've been trying to--with 
weapons of mass destruction--discover why the Soviet Union ever 
built 40,000 metric tons, more or less, of chemical weapons. 
Speaking of overkill, this is awesome. And the problem of 
getting rid of 40,000 metric tons is formidable, even if by 
treaty you've pledged to do it, under the Chemical Weapons 
Convention, which they have. It's been awesome for them, and 
for us.
    So it's not an easy set of issues to discuss, in terms of 
priorities. Our taxpayer funds are not unlimited even given the 
safety concerns. But this is why we would like to work with 
you, if we can, to refine and maybe even further the targeting 
of conventional weapons, in terms of priority. We seek to 
locate where they are, and what's the least expensive way of 
excising them. This is important for our security and for the 
security of our allies. We must, likewise, enlist the allies 
who see the problem but who, perhaps, are waiting for more 
enthusiasm on our part and increased organization of the 
effort.
    I thank you again for coming today. We appreciate very much 
the cooperation you have given to our staffs and to Senators on 
this committee. It has been a generous devotion of time, and so 
saying, the hearing is adjourned.
    Mr. Joseph. Thank you, Senator.
    [Whereupon, at 11:11 a.m., the hearing was adjourned.]
                              ----------                              


 Additional Material and Questions and Answers Submitted for the Record


              Newspaper Article Submitted by Senator Biden

             [From Knight Ridder Newspapers, Feb. 7, 2006]

            State Department Sees Exodus of Weapons Experts

                         (By Warren P. Strobel)

    Washington.--State Department officials appointed by President Bush 
have sidelined key career weapons experts and replaced them with less 
experienced political operatives who share the White House and 
Pentagon's distrust of international negotiations and treaties.
    The reorganization of the department's arms control and 
international security bureaus was intended to help it better deal with 
21st-century threats. Instead, it's thrown the agency into turmoil and 
produced an exodus of experts with decades of experience in nuclear 
arms, chemical weapons and related matters, according to 11 current and 
former officials and documents obtained by Knight Ridder.
    The reorganization was conducted largely in secret by a panel of 
four political appointees. A career expert was allowed to join the 
group only after most decisions had been made. Its work was overseen by 
Frederick Fleitz, a CIA officer who was detailed to the State 
Department as senior adviser to former Under Secretary of State John 
Bolton, a critic of arms agreements and international organizations.
    Bolton's nomination to be the U.S. Ambassador to the United Nations 
was nearly derailed last year by allegations that he'd harassed and 
bullied his staff. Some State Department weapons experts from offices 
that had clashed with Bolton were denied senior positions in the 
reorganization, even though they had superior qualifications, the 
officials and documents alleged.
    Fleitz, who works for Robert Joseph, Bolton's successor, later 
telephoned State Department employees who signed a letter protesting 
the moves and registered his displeasure, one official said.
    The political appointees who crafted the shakeup sought and 
received assurances from the State Department's legal and human 
resources offices that what they were doing was legal.
    But other officials charge that it violated longstanding management 
and personnel practices.
    ``The process has been gravely flawed from the outset, and smacks 
plainly of a political vendetta against career Foreign Service and 
Civil Service (personnel) by political appointees,'' a group of 
employees told Under Secretary of State for Management, Henrietta Fore, 
on December 9, according to notes prepared for the meeting.
    A dozen State Department employees delivered a rare written dissent 
to Fore and W. Robert Pearson, the director general of the Foreign 
Service, on October 11. Some also sought, but failed to get, a stay 
from the Justice Department to stop the plan.
    Joseph, the Under Secretary of State for arms control and 
international security, said in a telephone interview Tuesday that the 
changes might have been painful to some but were necessary.
    ``Reorganizations are never easy. They inevitably mean change,'' he 
said. ``The reorganization . . . was essential to better position us to 
further the President's strategy against WMD (weapons of mass 
destruction) proliferation and (Secretary of State Condoleezza Rice's) 
emphasis on transformational diplomacy.''
    ``Yet the reorganization also offers important new professional 
opportunities for the employees of the State Department,'' he said.
    Much more than personnel disputes are at stake, said the officials 
who are critical of the changes.
    They said they were concerned that Rice, who announced the changes 
last July but apparently hasn't been deeply involved in their 
execution, will be deprived of expertise on weapons matters. Among 
those who have left is the State Department's top authority on the 
Nuclear Non-Proliferation Treaty, the cornerstone of the international 
regime to curb the spread of nuclear arms.
    ``We had a great group of people. They are highly knowledgeable 
experts,'' said former Assistant Secretary of State John Wolf, who 
frequently clashed with Bolton. ``To the extent they now are leaving 
State Department employ, or U.S. Government employ, it's a real loss to 
State Department. It's a real loss to the government.''
    A half-dozen current department officials expressed the same view, 
but spoke on condition of anonymity because, they said, they feared 
retaliation.
    Jonathan Granoff, the director of the Global Security Institute, an 
arms control advocacy group, said the loss of State Department arms-
control expertise was especially worrisome because the only mechanism 
for verifying U.S. and Russian nuclear arms cuts--the 1991 START I 
treaty--is due to expire in less than 3 years.
    That also will eliminate the most effective way of verifying that 
the former rivals are abiding by their Non-Proliferation Treaty 
commitments to eliminate their nuclear arsenals eventually, he said. 
``Rather than nurture our experts, the administration seems to have 
brought in neophytes without a passion for progress in this field and, 
worse, undermined the international institutions that are most 
effective in stopping proliferation,'' he said.
    More broadly, the clash is the culmination of a generation-old 
battle over arms control.
    In one corner are specialists who argue that negotiated arms 
agreements help U.S. security; in the other are those who argue that 
the United States should rely mostly on the threat of force, sanctions 
and other unilateral steps to curb the spread of dangerous weapons and 
maintain a credible deterrent against an attack.
    When she announced the reorganization, Rice declared that more than 
deterrence and arms control treaties are necessary to safeguard 
America. ``We must also go on the offensive against outlaw scientists, 
black-market arms dealers and rogue state proliferators,'' she said.
    Bush has demanded maximum Presidential flexibility on national 
security matters, avoiding major new arms treaties and pushing the 
limits of executive power on issues from domestic eavesdropping to the 
treatment of terrorism suspects.
    Many career government experts didn't dispute the need to 
reorganize U.S. policy offices that deal with weapons of mass 
destruction. But they said they worried that future administrations 
with a view different from Bush and Rice's would have to build the 
expertise they'd need from scratch.
    An inquiry by Knight Ridder has found evidence that the 
reorganization was highly politicized and devastated morale.
    Thomas Lehrman, a political appointee who heads the new office of 
Weapons of Mass Destruction Terrorism, advertised outside the State 
Department to fill jobs in his office. In an e-mail to universities and 
research centers, a copy of which was obtained by Knight Ridder, he 
listed loyalty to Bush and Rice's priorities as a qualification.
    Lehrman reportedly recalled the e-mail after it was pointed out 
that such loyalty tests are improper.
    Specialists in the Department's old Nonproliferation Bureau, which 
frequently battled Bolton on policy toward Iraq, Iran and North Korea, 
largely were frozen out of important jobs when offices in that bureau 
merged with those in another.
    ``Bolton had blood in his eyes for the Nonproliferation Bureau,'' 
said another official who's still working at the State Department.
    One of the government's top experts on the U.N. International 
Atomic Energy Agency, which helps stem the spread of nuclear weapons 
but disputed the Bush administration's claims about Iraq's weapons 
programs, returned from two and a half years at IAEA headquarters in 
Vienna, Austria, and was blocked from assuming an office directorship 
that had been offered to him, the officials and a complaint document 
said.
    The post, which oversees U.S. diplomacy regarding international 
efforts to contain suspected nuclear-weapons programs such as those in 
Iran and North Korea, went to a more junior officer who numerous 
officials said shared Bolton's views.
    Five higher-ranking officers were passed over, the document says, 
adding that none had negative work histories ``aside from intimations 
that they were not as `trusted' politically by the political management 
level.''
    In August 2005, the officer chosen for the job sent an e-mail 
sarcastically titled: ``A Nobel for the IAEA? Please.'' The agency and 
its director general, Mohamed ElBaradei, were awarded the Nobel Peace 
Prize in October.
    None of the most senior posts in the new organization was filled by 
a woman, although several highly qualified female candidates were 
available.
    The effort was at odds with the recommendations of four December 
2004 reports by the Department's inspector general, also obtained by 
Knight Ridder.
    The reports praised the nonproliferation unit as ``having remained 
center stage following the events of September 11, 2001.'' The unit it 
merged with, the Arms Control Bureau, was described as ``largely in 
search of work.''
    A third unit overseen by Bolton--and now Joseph--which deals with 
overseeing compliance with arms treaties, was recommended for 
downsizing. Instead, it's been expanded.
    Mark Fitzpatrick, a veteran nonproliferation expert who recently 
left the State Department, said he was worried about what he called an 
``exodus'' of qualified specialists from the Department.
    ``It seems about a dozen or so have left since the merger came 
about, many out of frustration,'' said Fitzpatrick, who's now at the 
International Institute for Strategic Studies in London. ``I'm 
concerned that the ability of the merged bureaus to provide to 
Condoleezza Rice the same kind of high-quality advice they provided 
Colin Powell on the very dire proliferation issues facing the world 
will be diminished by the exodus.''
    The American Foreign Service Association, which represents foreign 
service officers, wrote to Rice on November 28, citing allegations that 
political considerations drove the reorganization.
    Dissidents had a second meeting last month with Fore, the Under 
Secretary of State for management.
                                 ______
                                 

  Responses of Under Secretary Joseph to Questions Submitted for the 
                 Record by Senator Joseph R. Biden, Jr.

    Question. The United States and the EU3 put together a remarkably 
broad coalition in the IAEA Board of Governors, leading to the Board's 
resolutions of September 24, 2005, and February 4, 2006.

  <bullet> What are you going to do to maintain that coalition in the 
        coming weeks and months?
  <bullet> Do recent statements by U.S. officials that Iran is close to 
        being able to build a nuclear weapon help to maintain that 
        coalition, or do they threaten to undermine it by sounding too 
        similar to our prewar statements on Iraq?

    Answer. The United States is committed to a peaceful, diplomatic 
solution to the Iran nuclear issue that spares the international 
community from the threat of a nuclear-armed Iran. We have worked 
actively with the EU3 and EU, Russia, China, India, and many others to 
build a large and widening consensus on the steps Iran must take to 
resolve this issue. Those steps are clearly spelled out in recent 
resolutions adopted by the IAEA Board of Governors: Iran must 
reestablish full and sustained suspension of all enrichment-related and 
reprocessing activities; reconsider construction of a heavy-water 
reactor; ratify and implement an Additional Protocol; and provide the 
IAEA with the full cooperation and transparency that the IAEA has 
repeatedly requested. Iran's continuing refusal to take those steps, 
and indeed Iran's decision to take contrary and confrontational 
actions, is actually helping to solidify the international consensus 
that any diplomatic resolution must be preceded by Iran fulfilling 
those conditions as requested by the IAEA Board.
    As the IAEA's efforts continue, and as both the IAEA Board and the 
U.N. Security Council work in coordinated fashion to urge Iran to take 
those steps, we will continue to work closely with our international 
partners to maintain firm pressure on Iran to comply with the 
international community's wishes.
    As U.S. intelligence officials have stated in open testimony before 
Congress, the risk of Iran acquiring a nuclear weapons capability, 
especially as it pursues in parallel a ballistic missile program, makes 
stopping those programs an immediate concern to the international 
community. Our best assessment of Iran's nuclear program is that absent 
significant additional foreign assistance, and assuming there is not a 
clandestine centrifuge program that is more advanced than the overt 
program, Iran will not be able to produce enough fissile material for a 
nuclear weapon before early to mid next decade. Given the significant 
gaps in our understanding of the scope and history of Iran's nuclear 
program, however, we cannot be certain that there is not a clandestine 
centrifuge program ongoing right now.
    As the latest report from the IAEA makes clear, the IAEA continues 
to see indicators that Iran has not come clean about the full extent of 
its activities, including in regard to centrifuge uranium enrichment 
and possession of information related to nuclear weapons. Thus, apart 
from any national intelligence perspective on Iran's nuclear program, 
the international community has been placed on alert by the IAEA that 
there are serious questions and inconsistencies arising from Iran's 
declarations.
    Moreover, we believe that once Iran crosses a more near-term 
threshold of mastering the operation of a centrifuge cascade--a goal 
that Iran is aggressively proceeding toward now--it will be much more 
difficult for diplomatic pressure to persuade Iran to change course and 
abandon that program before it crosses the nuclear weapons threshold.

    Question. Iran is now fairly isolated in the world, on the issue of 
its sensitive nuclear activities. How will we convert that isolation 
into tangible pressure on Iran to comply with resolutions of the IAEA 
Board?

  <bullet> Will other countries, with stronger ties to Iran, pay visits 
        to Tehran and tell Iran's leaders that they have to change 
        their policies?
  <bullet> Will leaders of the Non-Aligned Movement make clear that 
        Iran is not acting in their best interests?

    Answer. We are working to widen the international consensus on the 
steps Iran must take to resolve this issue diplomatically. Most 
countries throughout the world share our objective of preventing Iran 
from acquiring a nuclear weapons capability. In addition to the ongoing 
efforts by the IAEA and at the IAEA Board, and our expectation that the 
U.N. Security Council will take up the Iran issue shortly after the 
IAEA Board meeting's early March discussion of the issue, we are 
encouraging countries that maintain relations with Iran to use what 
leverage they have--diplomatic, political, even economic and 
commercial--to persuade Iran to change course. If countries wish to 
visit Iran to deliver such messages directly to Iran's leaders, they 
have our support to do so.
    We encourage the Non-Aligned Movement to use its influence with 
Iran to persuade Iran's Government to change course, comply with IAEA 
Board requests, cooperate fully with the IAEA's ongoing investigations, 
and return to negotiations in good faith on the future of its nuclear 
program. Many individual NAM members or observers voted to support the 
IAEA Board's February 4 resolution, including Argentina, Brazil, China, 
Egypt, Ghana, India, Singapore, Sri Lanka, and Yemen. Given that five 
NAM members--Algeria, Belarus, Indonesia, Libya, and South Africa--
abstained on the resolution, and three NAM members--Cuba, Syria, and 
Venezuela--voted against it, it is clear that there is no NAM consensus 
on how to address the Iran nuclear issue. One important message we are 
trying to send to the NAM and its member states is that the United 
States supports the right of states to enjoy access to peaceful nuclear 
energy. Our concern is that Iran's pursuit of the nuclear fuel cycle is 
not for peaceful or nuclear energy-based purposes, a concern shared by 
at least some NAM members.

    Question. Many people think that the United States wants the U.N. 
Security Council to sanction Iran immediately, but U.S. officials have 
emphasized that this would not be the first step. If Iran fails to 
comply with IAEA Board resolutions by next month, what action will you 
encourage the U.N. Security Council to take?

  <bullet> Should it simply call upon Iran to resume its suspension of 
        sensitive nuclear activities and to work with the IAEA?
  <bullet> Does the Security Council have the authority to give the 
        IAEA special inspection rights in Iran? Is that under 
        consideration?

    Answer. When the U.N. Security Council takes up the Iran issue 
following the IAEA Board's March meeting, we will encourage the 
Council, as an initial step, to issue a Presidential Statement (PRST) 
that calls on Iran to comply fully with the IAEA Board's repeated 
requests. Those requests include resumption of a full suspension of all 
enrichment-related and reprocessing activities, full cooperation with 
the IAEA, and ratification of an Additional Protocol. I believe such a 
statement from the Security Council, which lends the Council's weight 
to the IAEA's efforts in Iran and IAEA Board's calls on Iran, would add 
significant pressure on the Iranian regime to comply. However, if Iran 
defies such a UNSC request as it has defied the past nine IAEA Board 
resolutions, we would expect the Council to consider taking additional 
measures to increase pressure on Iran to comply.
    Both IAEA Director General ElBaradei and the IAEA Board have called 
on Iran ``to implement transparency measures, as requested by the 
Director General, which extend beyond the formal requirements of the 
Safeguards Agreement and Additional Protocol, and include access to 
individuals, documentation relating to procurement, dual-use equipment, 
certain military-owned workshops, and research and development 
locations.'' Iran has refused.
    If Iran defies a request from the UNSC to provide such transparency 
and cooperation to the IAEA, we would want the Council to explore 
additional measures. The Security Council has the authority under 
chapter VII of the U.N. Charter to decide that states must take 
particular actions in order to maintain international peace and 
security. Accordingly, it would be within the Security Council's 
authority, under chapter VII of the U.N. Charter, to require Iran to 
provide such transparency and cooperation to the IAEA, and to take any 
other measures that the Security Council deems necessary, to address 
the threat to international peace and security posed by Iran's pursuit 
of a nuclear weapons capability.

    Question. Iran's public case is built around the contention that it 
cannot remain dependent on others for nuclear reactor fuel. What is the 
United States doing, what are other countries doing, and what more can 
be done to assure Iran (and other countries) that if they were to give 
up the objective of nuclear independence, there would be a truly 
assured access to nuclear reactor fuel and to spent fuel management, at 
a reasonable price?

    Answer. Iran claims that it is seeking an indigenous nuclear fuel 
cycle--including the capability to make fissile material--for nuclear 
energy purposes only. Iran claims that its pursuit of the full nuclear 
fuel cycle, including uranium conversion and enrichment, and fuel 
fabrication, is both economically cost effective, and enhances Iran's 
energy security and independence. These claims are false. It is 
important to recall that Iran immediately, and unilaterally, rejected 
an August 2005 offer from the EU3 that offered a tangible and 
significant package of future cooperation and incentives to Iran, and 
held out the best prospect for improved relations between Iran and the 
international community since Iran's 1979 revolution.
    The EU3 proposal included future European assistance to support an 
expanded, safe, safeguarded nuclear power program in Iran, with 
assurances of guaranteed fuel supply. In return, Iran was asked to 
suspend its enrichment program for a period of at least 10 years, 
during which international confidence in Iran's nuclear intentions was 
to be rebuilt.
    Contrary to Iran's claims that ``the West'' seeks to deny Iran 
access to peaceful nuclear energy or related technologies, Iran 
rejected the EU3's offer of tangible assistance precisely on nuclear 
power and other fronts. Iran has chosen instead to pursue aggressively 
an indigenous uranium enrichment capability it does not need for 
peaceful purposes, and is not in position to utilize for peaceful 
purposes in any case, due to Iran's continuing lack of the necessary 
fuel fabrication know-how.
    It is instructive to look at Iran's declared uranium reserves. 
Iran's uranium reserves, as provided by Iran in 2003 to the OECD, are 
not commensurate with its declared program of reactor development--
seven 1,000 MW reactors by 2020--and would not provide sufficient 
reactor fuel for such a program. Under the most likely set of 
scenarios, Iran's uranium reserves would be exhausted before the seven-
reactor construction program was even completed. Indeed, Iran's known 
uranium reserves--1,427 tons--provide less than 1 year's worth of 
operations for seven nuclear power reactors. Iran's known and 
speculative reserves in total--15,277 tons--provide less than 10 years 
worth of such operation. Iran's uranium reserves simply do not give 
Iran nuclear energy independence, regardless of whether Iran possesses 
a nuclear fuel cycle. However, those reserves would provide enough 
uranium for Iran to support a significant nuclear weapons program.
    In addition to our support for the EU3 and Russian diplomatic 
initiatives, which would provide Iran with specific fuel supply 
assurances, the United States is now working with major supplier 
states, with the IAEA, and with industry to develop a mechanism for 
alternative supply arrangements in the event of problems with the 
commercial market. Our aim is to provide assurances that will convince 
states with power reactors--both current and future--that their best 
interest is not to invest in fuel-cycle capabilities. If we can 
succeed, this will be a major gain for proliferation security.

    Question. If Iran refuses to cease its sensitive nuclear 
activities, there may well be a need to impose sanctions. What is the 
executive branch doing to plan for that eventuality?

  <bullet> What analysis has been done of the likely impact of various 
        possible sanctions in terms of costs to Iran, likelihood of 
        effective enforcement, costs to the countries imposing the 
        sanctions (especially if Iran took actions of its own), and 
        whether the right Iranians would bear the brunt of the 
        sanctions? Please summarize the results of those analyses.
  <bullet> Have other countries done such analysis, and have we and our 
        allies shared our results?
  <bullet> We all know that there would be a great reluctance in the 
        world to invoke sanctions on Iran's oil and gas industries. But 
        some people say that those sanctions would work because Iran is 
        dependent on imported refined products and cannot afford to 
        pull its crude oil off the world market. What is the 
        administration's view? What is the likelihood that the Security 
        Council could be convinced to invoke those sanctions and that 
        they would be obeyed? What actions could Iran take in response, 
        and how would those play out?
  <bullet> What is the administration doing to prepare the American 
        people and world markets for the possible need to accept the 
        economic costs of sanctions?
  <bullet> Are there other sorts of sanctions that could be effective?
  <bullet> Sometimes actions speak louder than words, while rhetoric or 
        threats can backfire. What are you doing with other countries 
        to develop actions that could be taken quietly, perhaps before 
        the Security Council orders mandatory sanctions, to get Iran's 
        attention.

    Answer. We have made clear that in raising pressure on the Iranian 
regime to abandon its nuclear weapons intentions and activities, we do 
not seek to harm the Iranian people. We hope the Iranian regime can be 
persuaded to make the strategic decision to end its pursuit of a 
nuclear weapons capability before the UNSC is forced to take more 
serious measures. But if Iran defies the UNSC--as it has defied the 
IAEA Board, the EU3, and others--we would support the UNSC using the 
full range of its authority to compel Iran to change course. We believe 
many members of the U.N. Security Council agree with this approach.
    It would be premature, however, to answer questions about any 
internal deliberations within the executive branch regarding the 
application of UNSC sanctions on Iran. It would be equally premature to 
answer questions about ongoing diplomatic discussions we are having 
with friends and allies on that same question.
    Separate from UNSC sanctions, however, there are other measures we 
are taking to persuade Iran to stop its nuclear weapons related 
activities, and to slow down those programs until Iran can be persuaded 
to stop. We are building the counterproliferation capabilities to 
deter, defend against, and defeat weapons of mass destruction.
    To be successful, we must work with others who share our goals and 
are willing to contribute to the outcome we seek. Protecting the United 
States from WMD proliferation and WMD-armed adversaries requires a 
broad array of instruments, policies, and programs. At one end of the 
spectrum are those measures that prevent Iran and other proliferators 
from gaining access to sensitive technologies and materials that could 
represent a short cut to nuclear weapons. Nunn-Lugar and other 
nonproliferation programs are key in this effort, reinforcing other 
important measures such as effective export controls by all states. As 
an administration, we have succeeded in expanding and accelerating 
these programs through not only U.S. funding, but also through the 
President's Global Partnership initiative which has added billions of 
dollars from others.
    At the other end of the spectrum, one key element of the solution 
set is missile defense, as well as improved counterforce and passive 
defense capabilities, together with capabilities to eliminate adversary 
WMD and to manage the consequences of WMD attacks. In a number of these 
critical areas, we are working closely with our allies, such as with 
Japan and Israel, on missile defenses to protect both our forces and 
our populations. This capability adds not only another layer of defense 
to our strategic posture against the preeminent threat we face, but 
also another powerful reason to persuade states like Iran not to 
acquire nuclear weapons in the first place.
    Other measures address the financial underpinnings of 
proliferation. United Nations Security Council Resolution 1540--adopted 
in April 2004 at the President's urging--requires states to adopt and 
enforce effective controls on providing funds and services related to 
export and transshipment of nuclear, chemical, or biological weapons 
and their means of delivery. Consistent with Resolution 1540, in July 
2005 G-8 leaders called for enhanced efforts to combat proliferation 
networks by developing, on an appropriate legal basis, cooperative 
procedures to identify, track, and freeze relevant financial 
transactions.
    President Bush augmented U.S. efforts in this field when he issued 
last June a new executive order, which authorizes the U.S. Government 
to freeze U.S. assets and block U.S. transactions of designated 
entities and persons, or their supporters, engaged in proliferation 
activities, and to prohibit U.S. persons from engaging in transactions 
with them. Currently 18 entities--6 from Iran, as well as 11 from North 
Korea and 1 from Syria--have been designated under the order, and we 
are actively considering designating additional ones.
    Finally one of the most important initiatives undertaken by the 
Bush administration to combat weapons of mass destruction, is the 
Proliferation Security Initiative (PSI), which shows the close 
interaction among--and the creative use of--diplomatic, military, 
economic, law enforcement, and intelligence tools to combat 
proliferation. PSI countries have put all of these assets to work in a 
multinational, yet flexible, fashion. The participating countries are 
applying existing laws in innovative ways while at the same time 
looking to strengthen relevant authorities where necessary and are 
cooperating as never before to interdict WMD-related shipments, to 
disrupt proliferation networks, and to hold accountable the front 
companies that support them. PSI has now expanded to include support 
from more than 70 countries, and continues to grow. It is not a treaty-
based approach, involving long, ponderous negotiations that yield 
results only slowly, if at all. Instead, it is an active--and 
proactive--partnership, to deter, disrupt, and prevent proliferation of 
WMD, their delivery systems, and related materials.
    And PSI is working--including against Iran. PSI cooperation has 
stopped the transshipment of material and equipment bound for ballistic 
missile programs in countries of concern, including Iran. PSI partners, 
working at times with others, have prevented Iran from obtaining goods 
to support its missile and WMD programs, including its nuclear program. 
And, of course, it was PSI cooperation among the United States, United 
Kingdom, Germany, and Italy that led to the demise of the A.Q. Khan 
network, an action that also impacted heavily on the decision of the 
Libyan Government to abandon its nuclear weapons and longer range 
missile programs.

    Question. What will the United States do if Iran goes ahead and 
produces fissile material, or at least builds the facilities to make 
such material? How will you minimize the damage that will cause to 
regional security and to the global nonproliferation regime?

  <bullet> Would military action be the only option?
  <bullet> Or are there containment options that could limit Iran's 
        freedom of action and negate any benefits it might try to 
        achieve by virtue of having nuclear weapons?
  <bullet> What is the administration doing to lay the groundwork for 
        those options?

    Answer. The President and many of the world's leaders have 
repeatedly made clear that a nuclear-armed Iran is intolerable. If Iran 
were to cross that nuclear weapons threshold, it would have profoundly 
negative consequences, especially given the regime's unstinting support 
for terrorism; its blatant denial of human rights for its citizens; its 
reckless pursuit of regional dominance. Add to all that the critical 
importance to the international community, of compliance with the 
Nuclear Nonproliferation Treaty, of preventing any nuclear weapons 
proliferation, and of keeping nuclear weapons and materials out of the 
hands of rogue states and terrorists. As the President has said, we are 
committed to seeing a peaceful, diplomatic solution to this problem, in 
which Iran agrees to abandon its pursuit of a nuclear weapons 
capability. Given the dangers posed by a nuclear-armed Iran, however, 
no option is off the table to stop that program.
    I have already mentioned bilateral measures that the United States 
is taking, and encouraging other countries to take, to deter and defend 
against Iran's nuclear weapons ambitions. Beyond what I have already 
said, it would not be useful or prudent to address the administration's 
contingency planning should diplomacy not succeed. The entire 
international community recognizes the stakes involved, and is thus 
committed to seeking a diplomatic solution.

    Question. Ambassador Chris Hill got a good agreement in the last 
session of the Six-Party Talks, but North Korea seems to have buyer's 
remorse. And U.S. actions and statements on North Korea's criminal 
enterprises have played into the hands of those who never much liked 
negotiations in the first place. Where does that leave us? Are we 
keeping the pressure on North Korea? Or is North Korea keeping the 
pressure on us, as it continues to produce more plutonium and perhaps 
moves closer to a uranium enrichment capability as well?

    Answer. The United States is prepared to uphold its commitments in 
the joint statement adopted at the conclusion of the fourth round of 
the Six-Party Talks in Beijing on September 19, 2005. We expect North 
Korea to do the same. The joint statement included significant benefits 
the other parties will provide to the DPRK in the context of North 
Korea's full implementation of its commitment to eliminate all its 
nuclear weapons and existing nuclear programs verifiably and 
irreversibly.
    The United States has taken, and will continue to take, concrete 
actions against North Korean entities involved in illicit activities 
and proliferation. They are not related to the Six-Party Talks. Some of 
those actions long predate the Six-Party Talks. These defensive 
measures are necessary to defend against dangerous North Korean 
activities and will continue as long as North Korea engages in these 
types of activities. Some of these measures include designations under 
E.O. 13382, the USA PATRIOT Act section 311 designation against Banco 
Delta Asia, and our efforts against North Korean counterfeiting of U.S. 
currency and goods.

    Question. What priority do you give, and what priority does the 
President give, to actually reaching an agreement with North Korea?

    Answer. The complete, verifiable, and irreversible elimination of 
North Korea's nuclear weapons and nuclear programs is one of the 
highest national security priorities of President Bush. North Korea's 
nuclear programs pose the most serious security challenge in Northeast 
Asia. The issue is appropriately being addressed in the Six-Party 
Talks. It is a regional issue with global implications not a United 
States-North Korea bilateral issue.

    Question. Do you really think that the Proliferation Security 
Initiative can prevent North Korea from exporting fissile material or 
even a nuclear weapon if it is determined to do so?

    Answer. We believe the Proliferation Security Initiative (PSI) 
supplements and complements our efforts in the Six-Party Talks to 
achieve the complete, verifiable, and irreversible elimination of North 
Korea's nuclear weapons and nuclear programs. PSI provides a basis for 
governments to work together to share intelligence and make maximum use 
of their national and international legal authorities to interdict 
cargoes of proliferation concern. It is one of a number of 
counterproliferation tools we have at our disposal. It does not target 
any one country; however, participants have identified North Korea as a 
country of proliferation concern. Other counterproliferation measures 
target North Korea's illicit activities--drug smuggling, currency and 
cigarette counterfeiting, etc.--that yield hard currency that we 
believe helps enable North Korea's WMD and WMD delivery programs.

    Question. Do you see any realistic military option? Do we even know 
where North Korea's plutonium is?

    Answer. As President Bush said, we seek a peaceful, diplomatic 
settlement of the North Korean nuclear issue. In the joint statement 
adopted at the conclusion of the fourth round of the Six-Party Talks in 
Beijing in September 19, 2005, the United States affirmed that we have 
no intention to attack or invade North Korea with nuclear or 
conventional weapons.
    I would refer you to the Intelligence Community for information on 
the whereabouts of North Korea's plutonium.

    Question. Do you see any great likelihood of a favorable regime 
change in North Korea over the next few years?

    Answer. We believe that the six-party process offers the best 
opportunity to achieve a peaceful resolution of the North Korean 
nuclear issue. We remain ready to resume talks without preconditions 
and to work with all participating countries on a strategy for 
implementing the joint statement.

    Question. In December, the Senate again passed the Global Pathogen 
Surveillance Act, which would authorize the State Department to do more 
to train and equip other countries to spot infectious disease outbreaks 
and to recognize diseases that might be the result of bioterrorist 
attacks or experiments. The Secretary of State spoke out strongly in 
favor of this bill, and Senator Frist and I appreciate that support. 
Will the Department also weigh in on the House side now, with the 
International Relations Committee and the House leadership?

    Answer. The Secretary of State was strongly supportive of the 
Global Pathogen Surveillance Act (S. 2170) at the time of its 
consideration by the Senate and remains equally supportive of the act 
now. The Department looks forward to working closely with the 
International Relations Committee and the House leadership to promote 
enactment of this bill.

    Question. Last year, the fiscal year 2006 budget failed to fully 
fund the U.S. contribution to building the International Monitoring 
System to detect any covert nuclear test by an Iran or a North Korea. 
We amended the Foreign Operations appropriations bill to make up for 
that, but we lost in conference. I am pleased to see that the fiscal 
year 2007 budget submitted by the President includes full funding for 
this program next year. But we still need to meet our obligations for 
this year. Do you expect to reprogram fiscal year 2006 funds to make up 
the shortfall?

    Answer. Reprogramming funds to IMS is among the options under 
consideration, but budgets are extremely tight and priorities have to 
be set, even among programs supported by the administration. We will, 
of course, look for opportunities to reprogram funds during the fiscal 
year, but there are many competing priorities, and in any potential 
reprogramming we would have to take into account the allocations 
detailed by the conferees, which fully allocated all the NADR funds 
appropriated.

    Question. How many career professionals, with a rank of GS-13 or 
higher, have left what is now the Bureau of International Security and 
Nonproliferation since you came on board? How many more will leave in 
the next 6 months? How many of those were from the old Bureau of 
Nonproliferation?

    Answer. Rates of attrition in the T family of bureaus have remained 
relatively constant from year to year. In 2004, the Arms Control and 
Nonproliferation Bureaus experienced five retirements, five 
resignations, zero reassignments, one appointment expiration, and five 
terminations in appointment. In 2005, these two bureaus experienced 
nine retirements, six resignations, two reassignments and six 
terminations in appointment. (Terminations in appointment refer to 
employees that were one time limited appointments and changed Federal 
employment status.) Thus far, in 2006, the ISN Bureau has recorded one 
termination in appointment and anticipates four resignations and two 
retirements through March.
    Personnel turnover is an unfortunate fact of life in any 
organization, not only in the government and not only during periods of 
restructuring. Employees retire after years of service while others 
choose to pursue new opportunities. While we are disappointed to see 
employees leave the T family, we are heartened by the number of 
employees who are presented with other job opportunities based upon 
their excellent track record of work in the T family at the Department.

    Question. Were any women picked as Deputy Assistant Secretaries 
during the T reorganization?
    Were any women picked as office directors? How many women were 
serving as office directors, either permanently or in an acting 
capacity, before the reorganization?
    How many women will be deputy office directors? How many women were 
serving in that capacity, either permanently or in an acting capacity, 
before the reorganization?
    How many minorities will be deputy office directors or above?

    Answer. There were no changes in Deputy Assistant Secretaries 
during the T reorganization, and the Bureau management team remains in 
an acting capacity. In order to provide continuity and minimize 
disruption to the work of offices, no incumbent office directors were 
replaced by new personnel. This limited the number of office director 
openings to three new offices and one existing office that was headed 
by a female acting director who for personal reasons no longer wished 
to serve as a manager. In addition, another office headed by an acting 
female office director was merged with an office headed by a Foreign 
Service officer, who is a minority. The latter was selected to head the 
merged office. For those offices now headed by an acting director, the 
positions will be fully competed, in accordance with normal personnel 
procedures.
    The T bureau's record on diversity is excellent. The T bureaus have 
several female leaders and managers, including Assistant Secretary 
Paula DeSutter and Deputy Assistant Secretary Karin Look. Our 
ambassador to the Conference on Disarmament, Jackie Sanders, is also 
female. Although the small number of new office director openings did 
not result in the addition of women office directors, we anticipate T 
managerial positions becoming available in the near future and 
anticipate having several outstanding female candidates. Moreover, ISN 
has four office director positions assigned to the Foreign Service, 
which may well be filled from time to time by women or minorities 
through the normal Foreign Service rotation.

    Question. Last fall, the American Foreign Service Association 
(AFSA) complained to Secretary Rice about how your reorganization was 
proceeding.

  <bullet> What were their concerns?
  <bullet> How did you respond to those concerns?

    Answer. AFSA raised a number of questions about the T 
reorganization. The Department carefully studied these questions and 
answered them in a letter from Under Secretary Fore. Copies of AFSA's 
letter and Under Secretary Fore's response are attached.

                      American Foreign Service Association,
                                 Washington, DC, November 30, 2005.
Hon. Condoleezza Rice,
Secretary of State, U.S. Department of State,
Washington, DC.
    Dear Madam Secretary: I am writing to express AFSA's continuing 
concerns about the reorganization process and the reorganization itself 
of the Bureaus in the ``T family''--concerns that are being reaffirmed 
by numerous Foreign Service members who remain in communication with 
AFSA on this matter--and to reiterate AFSA's request to review, comment 
on, and if necessary negotiate the reorganization plans in writing 
before they are implemented.
    A number of developments have occurred since AFSA State VP Steve 
Kashkett and I met with Under Secretary Fore on October 28 to discuss 
these issues. The Senior Management Panel, which Under Secretary Joseph 
created to plan this reorganization, had a brief meeting with AFSA and 
invited us to participate in the two T ``all-hands'' meetings that it 
organized for employees of those bureaus. While we appreciated these 
limited attempts at outreach, we note that AFSA has never received 
anything in writing regarding the Panel's specific proposals for the 
reorganization, and the Panel finalized its decisions and proceeded to 
implement them without concurrence from AFSA.
    AFSA and its members throughout those bureaus remain deeply 
concerned over:

  <bullet> Lack of clarity and transparency in the naming of acting 
        office directors and deputy office directors for the newly 
        reorganized bureaus;
  <bullet> Continuing concerns over the possible downgrading or 
        elimination of FS-designated positions in those bureaus, or 
        their subordination to non-career supervisors at the office 
        director level;
  <bullet> Persistent allegations from Foreign Service members that 
        political considerations--i.e., perception of loyalty to a 
        particular ideological point of view--are determining how 
        individual employees fare in the reorganization;
  <bullet> The implementation of changes without advance review much 
        less formal concurrence by AFSA.

    While we recognize Under Secretary Joseph's right to reorganize the 
bureaus that fall under his direction, AFSA also has the right under 
the Foreign Service Act and our collective bargaining agreement to be 
consulted on specific proposed actions--and where appropriate to engage 
in negotiations--prior to the Department's implementation of changes 
that affect our bargaining unit members. In fact, it would be an unfair 
labor practice for the Department to change the conditions of 
employment of our members without negotiating/consulting with AFSA.
    This reorganization is already affecting the conditions of work for 
Foreign Service members serving in those bureaus, as well as the 
willingness of other FS employees to seek assignments in the T bureaus. 
Numerous members have noted the extremely low morale among T bureaus' 
employees as a result of the manner in which the Senior Management 
Panel conducted this reorganization. Foreign Service members have also 
expressed to us their deep concern that these and other actions related 
to the reorganization will harm the Department's ability to respond to 
the great security threat of WMD proliferation, not only in the short 
term, but for many years to come.
    We therefore request, in accordance with our collective bargaining 
rights, the following:
          1. A complete written description of the reorganization plan, 
        including details of all changes proposed by the Senior 
        Management Panel that affect Foreign Service employees and 
        positions, including the selection of acting office directors/
        deputy directors;
          2. Suspension of all personnel decisions, including those 
        announced late on November 22, until AFSA has had the 
        opportunity to consult and/or negotiate as appropriate on these 
        proposed changes;
          3. A comprehensive list of all vacant FS positions in the T 
        bureaus and their inclusion on the open assignments bid list 
        for summer 2006, in accordance with our agreement relating to 
        the Open Assignments system;
          4. A written summary of how the Panel's plans mesh with the 
        Inspector General's report and recommendations.
          5. Finally, we strongly suggest that you appoint an 
        independent panel to review all proposed reorganization 
        decisions with regard to EEO concerns and prohibited personnel 
        practices, both of which have been alleged by our members and 
        which some may pursue should the Department itself not act to 
        correct those actions.
    Thank you again for your assistance and for your attention to this 
important matter.
            Respectfully yours,
                                         J. Anthony Holmes,
                                                         President.
                                 ______
                                 
                   Under Secretary of State for Management,
                                 Washington, DC, December 13, 2005.
Hon. J. Anthony Holmes,
President, American Foreign Services Association,
Washington, DC.
    Dear Mr. Holmes: The Secretary has asked that I reply to your 
letter of November 30 regarding the T reorganization in the Department. 
As always, we appreciate learning of your concerns, and those of your 
members.
    In its 2004 reports on the Bureaus of Arms Control (AC) and 
Nonproliferation (NP), the Office of the Inspector General (OIG) asked 
the leadership of the Department to explore the restructuring of these 
former ACDA entities because, in its view, the existing bureaucratic 
structure did not meet current needs. We have done so and, as 
recommended, Secretary Rice has decided to merge the two bureaus.
    The inspectors also recommended that the Department ``redesign'' 
the Bureau of Verification and Compliance. After considerable 
discussion, including with the Congress, we have done so, albeit not as 
a ``specialized entity.''
    I understand that despite several townhalls and meetings, plus the 
sharing of the ``cross-walk'' on November 22, AFSA continues to hear 
from employees in the T family about the reorganization. Although the 
reorganization has not been easy, I can assure you and your members 
that the Office of the Legal Adviser and Deputy Assistant Secretary 
Linda Taglialatela of the Bureau of Human Resources have actively 
monitored the reorganization to ensure that all steps were taken in 
accordance with the law.
    Nevertheless, in the spirit of cooperation and in response to your 
request, I am forwarding to you the following papers:

         (1) The ``cross-walk'' distributed November 22;
         (2) September 2005 staffing patterns for the Bureaus of 
        Nonproliferation; Arms Control; Verification and Compliance; 
        and Political-Military Affairs;
         (3) Draft December 2005 staffing patterns for the Bureaus of 
        International Security and Nonproliferation; Verification, 
        Compliance; and Implementation; and Political-Military Affairs; 
        and
         (4) A list of all expected 2006 vacant FS positions in the T 
        bureau and their status in the 2006 Open Assignments cycle.
    I hope that this information will reassure you and your members.
            Cordially,
                                         Henrietta H. Fore.
    Enclosures: As stated.

[Editor's note.--The enclosures stated above were too voluminous to 
include in this hearing. They will be retained in the permanent record 
of the committee.]

    Question. Is it true that your reorganization was handled in a 
manner that made it difficult for Foreign Service officers to know, in 
a timely manner, what positions were open and what their duties would 
be?

    Answer. No. All efforts were made to ensure the timely placement of 
accurate FSO position descriptions for the newly created and merged 
offices.

    Question. How many ISN positions will be filled by Foreign Service 
officers, and how will that compare to the number of FSOs in the old 
Arms Control and Nonproliferation bureaus? How will the new FSO 
positions compare to the ones in the old bureaus?

    Answer. All FSO positions have transferred from the previous AC and 
NP bureaus in the new ISN Bureau. Moreover, as part of the 
reorganization, two of the new office director positions were converted 
to Senior Foreign Service positions, and thereby made available for 
members of the Senior Foreign Service or those serving in a ``stretch'' 
assignment. Unfortunately, we face an uphill battle in filling all our 
positions because more FSO positions exist Department-wide than the 
number of available FSOs to fill those positions. We are examining ways 
to enhance our recruitment efforts and to attract FSOs to the T family.

    Question. A Knight-Ridder story cited one especially disturbing 
case:

          A political appointee who heads the new office of Weapons of 
        Mass Destruction Terrorism advertised outside the State 
        Department to fill jobs in his office. In an e-mail to 
        universities and research centers . . . he listed loyalty to 
        Bush and Rice's priorities as a qualification. [He] reportedly 
        recalled the e-mail after it was pointed out that such loyalty 
        tests are improper.

    Is that report accurate? If so, please provide a copy of the e-mail 
and answer the questions that follow:
    1. What action did you take regarding that political appointee?
    2. Is he still in that Office Director position?
    3. Is he still applying a political litmus test, even if he isn't 
advertising it in public?

    Answer. The Acting Office Director of the Office of Weapons of Mass 
Destruction Terrorism, who is not a political appointee, forwarded some 
information to two of his former professors, who in turn sent an e-mail 
to certain students and contacts, regarding potential openings in this 
new office. The Department regrets any suggestion in the e-mail that 
there would be a political litmus test applied to prospective 
employees. Department officials spoke to the acting office director, 
who issued a clarification of his e-mail. The Department is committed 
to complying with all applicable personnel rules in hiring its 
employees.

    Question. Is it true that you had to find another position for an 
officer returning from the International Atomic Energy Agency, after 
you were warned that you were violating his employment rights by 
denying him an Office Director position?

    Answer. No. The senior employee who returned from the International 
Atomic Energy Agency will be reemployed in an appropriate SES position 
in the T family. That employee does not have a right to a particular 
SES position in the Department.

    Question. In December, I raised with the Secretary the lack of an 
office with responsibility for any future arms control negotiations. 
Her response to my letter said, ``We have not eliminated any of our 
arms control negotiating capability, and I am committed to maintaining 
it.'' She went on to say that, ``Officers in the ISN Bureau, as well as 
elsewhere in the Department . . . can be drawn on as necessary to 
support any negotiations that may take place.''
    Is it your view that arms control (other than verification and 
implementation of existing agreements) is best treated as an ad hoc 
function? If so, why?

    Answer. The Department maintains considerable multilateral arms 
control expertise that is regularly involved in working on important 
arms control treaties to which the United States is a party. For 
example, Ambassador Donald Mahley, the U.S. Special Negotiator for 
Chemical and Biological Weapons is actively engaged in preparations for 
the 2006 BWC Review Conference. Ambassador Eric Javits, our 
representative to the Organization for the Prohibition of Chemical 
Weapons, is similarly engaged in The Hague. The Department is active in 
other areas to promote the NPT, IAEA Safeguards agreements, the MTCR, 
and the Australia Group.

    Question. What preparations are you making for possible 
negotiations on an extension of the START Treaty? Have you commissioned 
any analysis of how our national security would be affected if the 
START Treaty were allowed to lapse in 2009? Have you asked the 
Intelligence Community how its monitoring of Russian strategic arms 
would be affected if there were no more START Treaty arms inspections?
    What changes in the treaty might be desirable and obtainable, in 
the context of an extension of it?
    Under article XVII of the START Treaty, bilateral consideration of 
any extension of the treaty would have to begin in 2008. When do you 
expect to put a team together and make this a mission of one of your 
ISN offices?

    Answer. The United States has proposed to Russia that discussions 
on transparency, the START Treaty, and our future strategic 
relationship take place in the Strategic Group on international 
security issues, which I cochair with my counterpart in the Russian 
Foreign Ministry. We are already discussing aspects of that 
relationship and expect the START Treaty will soon be a subject of our 
discussions.
    At my request last fall, we began preparing for these discussions, 
with the coordination of the NSC staff. The Departments of State and 
Defense and the Intelligence Community are considering what approach 
the United States should take to the scheduled expiration of the 
multilateral START Treaty in December 2009. We are considering the 
overall impact on our national security, including our relationship 
with Russia and the other START Parties, how our defense programs would 
be affected, the adequacy of our capabilities to monitor future 
developments in Russian strategic arms, and what measures might be 
desirable and obtainable after December 2009. Prior to detailed 
discussions with the Russians, we will work to develop a comprehensive 
U.S. position.
    As indicated above, discussions will occur initially in my channel 
with the Russian MFA. I intend to draw upon the expertise in the 
Department as well as other appropriate agencies.
                                 ______
                                 

 Responses of Under Secretary Robert Joseph to Questions Submitted for 
                   the Record by Senator Barack Obama

    Question. Would the development of additional international 
standards and controls, with a robust enforcement mechanism on the 
export of conventional weapons, assist the State Department in 
controlling the proliferation of small arms, MANPADS, and other 
advanced conventional weapons? In what areas are further global export 
controls needed?

    Answer. The U.S. Government believes that the illicit and 
irresponsible proliferation of conventional weapons has had serious 
consequences for regional stability and social and economic 
development. We spend millions of dollars per year on the destruction 
of excess small arms and light weapons to further this goal.
    The U.S. Government is working in several international fora to 
strengthen national controls on arms brokering. Many countries have 
recognized the destabilizing impact of conventional arms sales can have 
in regions or countries of/in conflict, and, therefore, have policies 
to prohibit such transfers. Arms brokering is one element that needs 
higher attention in these policies. The Wassenaar Arrangement and the 
OSCE have already taken steps on strengthening brokering controls. 
Under the U.N. Program of Action on Small Arms and Light Weapons, a GGE 
on brokering will convene in the fall 2006.
    We are nevertheless skeptical that a new legally binding 
international agreement, would significantly contribute to the 
objective of controlling the proliferation of small arms, MANPADS, and 
advanced conventional weapons. To be effective, any new measures would 
have to include all major military exporters, not undermine ongoing 
programs in the United Nations and elsewhere, and be consistent with 
existing national laws.

    Question. Secretary Joseph, could the Department use more personnel 
to implement future destruction plans? Does the current budget request 
allow for expanding staff resources?

    Answer. As I stated during my testimony, I support the President's 
budget. Within the parameters of our fiscal year 2007 request, I will 
work to balance available positions to achieve the common interdiction 
and destruction goals we discussed. I am working to allocate human 
resources on a basis of identified work load to ensure that our highest 
priority needs are met. As an example, as part of the ongoing 
reorganization within the ``T'' family of bureaus, staff resources are 
being reallocated to support the destruction of both WMD and 
conventional weapons.

    Question. Secretary Joseph, of the 191 U.N. members states, how 
many (1) have a conventional weapons stockpile that pose a 
proliferation threat, and (2) lack the financial or institutional 
capacity to address that threat?

    Answer. Comprehensive information of this kind is not available 
from either government or nongovernmental sources. However, while it 
might be useful to know the totality of the problem, we do not require 
this information to develop an effective response. We know those states 
that are sources of weapons, those that are involved in illicit trade 
in weapons, and those that suffer from the effects of proliferated 
weapons. Impact assessments that include security, humanitarian and 
environmental factors allow us to prioritize our work and to develop a 
targeted and effective response to the overall problem. Based on these 
assessments, smaller stockpiles often pose the greatest threats.
    We have found in our work that for those states facing a 
proliferation threat, it is neither finances nor institutional capacity 
that is the greatest impediment to action, but political will. 
Extensive diplomatic engagement is required to gain cooperation from 
states to secure and destroy stockpiles. Most states consider issues 
such as weapons stockpile size and weapons security to be sensitive 
items of national security. As a result, they often are reluctant to 
share such information and are extremely unlikely to cooperate with any 
sort of global assessment activity.

    Question. Secretary Joseph, in your view, where is there room for 
improvement within the State Department on the issues covered by the 
Lugar-Obama legislation (conventional weapons and WMD interdiction)?

    Answer. Lugar-Obama is a comprehensive piece of legislation that 
seeks to reduce both WMD and conventional weapons proliferation. My 
team is currently studying the proposed legislation and will be 
briefing me on their suggestions in the near future.

    Question. Secretary Joseph, in his opening statement, Senator Lugar 
stated, ``U.S. efforts in this area (curtailing the spread of WMD and 
conventional weapons) are currently underfunded, fragmented, and in 
need of high-level support.'' What parts of this statement do you agree 
with--which parts with which do you disagree?

    Answer. We carefully considered our funding proposal in light of 
current fiscal constraints, present funding environment, and the 
Secretary of State's priorities. While curtailing the spread of WMD and 
conventional weapons are both significant challenges, as you know, they 
are but two of the many challenges that we face, and needs will always 
exceed resources, no matter what the challenge.
    We believe that the recent restructuring in the State Department 
configures us well to pursue the objectives of the legislation in both 
counterproliferation and conventional weapons reduction. The new Bureau 
of International Security and Nonproliferation brings focus to the 
Department's efforts in the WMD area, while the Bureau of Political-
Military Affairs' relatively new Office of Weapons Removal and 
Abatement consolidates the humanitarian mine action and small arms and 
light weapons initiatives into one unit, allowing us to better pursue 
the integrated and comprehensive approach that is so essential to 
address these complex problems.
    Finally, this issue is supported at the highest levels within the 
Department and the executive branch. The President and his 
administration have devoted higher priority and more funding to 
nonproliferation, counterproliferation, and weapons reduction than any 
previous administration.

    Question. Secretary Joseph, one of the key aspects of the Lugar-
Obama legislation is its focus on detection and interdiction of weapons 
of mass destruction. In his opening statement, the chairman made a 
comment in that current State Department programs are ``focused on 
other stages of the threat, not on detection and interdiction.'' And, 
that the Proliferation Security Initiative, while successful, is 
flawed--many of our partners do not have the resources to be capable 
and effective partners. Do you believe that there are gaps in current 
State Department efforts to address this critical issue?

    Answer. State Department efforts are indeed focused on developing 
international cooperation to detect and interdict WMD-related shipments 
through the Proliferation Security Initiative. A variety of U.S. 
technical assistance programs currently help international partners 
develop relevant capabilities ranging from export controls enforcement 
and border security to establishment of appropriate national 
legislation, as called for in UNSCR 1540.
    The State Department has made clear to our PSI partners that we 
will respond on a case-by-case basis to requests for technical or other 
program assistance. State also reviews country reports that come to the 
UNSCR 1540 Committee regarding country resource needs in this area and 
alerts existing U.S. technical assistance programs regarding detection 
and interdiction-related needs that are reported. In the rare case that 
existing U.S. programs can not address such a need, the State 
Department will explore the use of ISN's NDF program and/or investigate 
other means, up to and including the establishment of new assistance 
programs to address such needs.

    Question. In May 2005, Secretary Rice stated that ``In the last 9 
months alone, the United States and 10 of our PSI partners have quietly 
cooperated on 11 successful efforts. PSI cooperation stopped the 
transshipment of material and equipment bound for ballistic missile 
programs in countries of concern, including Iran.''
    What is your definition of a ``PSI'' interdiction and what is not?
    How many such interdictions have occurred since then?
    On a classified basis, if necessary, could you please provide me 
with a list of specific PSI-sponsored interdictions?

    Answer. A PSI interdiction entails cooperation among two or more 
PSI participants. The number of interdictions, whether PSI related or 
not, that has occurred since May 2005, is a classified matter involving 
sensitive intelligence information. The Secretary's remarks were 
elaborated in a classified briefing I presented to Members of the 
Senate in August 2005. Foreign Relations Committee staff retained 
copies of this briefing for committee files.

                                  <all>

</pre></body></html>
